<html>
<title> - LESSONS FROM ACROSS THE NATION: STATE AND LOCAL ACTION TO COMBAT CLIMATE CHANGE</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


   LESSONS FROM ACROSS THE NATION: STATE AND LOCAL ACTION TO COMBAT 
                             CLIMATE CHANGE

=======================================================================

                                HEARING

                               BEFORE THE

             SUBCOMMITTEE ON ENVIRONMENT AND CLIMATE CHANGE

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 2, 2019

                               __________

                           Serial No. 116-20
                           
                           
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                           


      Printed for the use of the Committee on Energy and Commerce

                   govinfo.gov/committee/house-energy
                        energycommerce.house.gov
                        
                        
                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
39-669 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------
                        
                        
                    COMMITTEE ON ENERGY AND COMMERCE

                     FRANK PALLONE, Jr., New Jersey
                                 Chairman
BOBBY L. RUSH, Illinois              GREG WALDEN, Oregon
ANNA G. ESHOO, California              Ranking Member
ELIOT L. ENGEL, New York             FRED UPTON, Michigan
DIANA DeGETTE, Colorado              JOHN SHIMKUS, Illinois
MIKE DOYLE, Pennsylvania             MICHAEL C. BURGESS, Texas
JAN SCHAKOWSKY, Illinois             STEVE SCALISE, Louisiana
G. K. BUTTERFIELD, North Carolina    ROBERT E. LATTA, Ohio
DORIS O. MATSUI, California          CATHY McMORRIS RODGERS, Washington
KATHY CASTOR, Florida                BRETT GUTHRIE, Kentucky
JOHN P. SARBANES, Maryland           PETE OLSON, Texas
JERRY McNERNEY, California           DAVID B. McKINLEY, West Virginia
PETER WELCH, Vermont                 ADAM KINZINGER, Illinois
BEN RAY LUJAN, New Mexico            H. MORGAN GRIFFITH, Virginia
PAUL TONKO, New York                 GUS M. BILIRAKIS, Florida
YVETTE D. CLARKE, New York, Vice     BILL JOHNSON, Ohio
    Chair                            BILLY LONG, Missouri
DAVID LOEBSACK, Iowa                 LARRY BUCSHON, Indiana
KURT SCHRADER, Oregon                BILL FLORES, Texas
JOSEPH P. KENNEDY III,               SUSAN W. BROOKS, Indiana
    Massachusetts                    MARKWAYNE MULLIN, Oklahoma
TONY CARDENAS, California            RICHARD HUDSON, North Carolina
RAUL RUIZ, California                TIM WALBERG, Michigan
SCOTT H. PETERS, California          EARL L. ``BUDDY'' CARTER, Georgia
DEBBIE DINGELL, Michigan             JEFF DUNCAN, South Carolina
MARC A. VEASEY, Texas                GREG GIANFORTE, Montana
ANN M. KUSTER, New Hampshire
ROBIN L. KELLY, Illinois
NANETTE DIAZ BARRAGAN, California
A. DONALD McEACHIN, Virginia
LISA BLUNT ROCHESTER, Delaware
DARREN SOTO, Florida
TOM O'HALLERAN, Arizona
                                 ------                                

                           Professional Staff

                   JEFFREY C. CARROLL, Staff Director
                TIFFANY GUARASCIO, Deputy Staff Director
                MIKE BLOOMQUIST, Minority Staff Director
             Subcommittee on Environment and Climate Change

                          PAUL TONKO, New York
                                 Chairman
YVETTE D. CLARKE, New York           JOHN SHIMKUS, Illinois
SCOTT H. PETERS, California            Ranking Member
NANETTE DIAZ BARRAGAN, California    CATHY McMORRIS RODGERS, Washington
A. DONALD McEACHIN, Virginia         DAVID B. McKINLEY, West Virginia
LISA BLUNT ROCHESTER, Delaware       BILL JOHNSON, Ohio
DARREN SOTO, Florida                 BILLY LONG, Missouri
DIANA DeGETTE, Colorado              BILL FLORES, Texas
JAN SCHAKOWSKY, Illinois             MARKWAYNE MULLIN, Oklahoma
DORIS O. MATSUI, California          EARL L. ``BUDDY'' CARTER, Georgia
JERRY McNERNEY, California           JEFF DUNCAN, South Carolina
RAUL RUIZ, California, Vice Chair    GREG WALDEN, Oregon (ex officio)
DEBBIE DINGELL, Michigan
FRANK PALLONE, Jr., New Jersey (ex 
    officio)
                             
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Paul Tonko, a Representative in Congress from the State of 
  New York, opening statement....................................     1
    Prepared statement...........................................     3
Hon. John Shimkus, a Representative in Congress from the State of 
  Illinois, opening statement....................................     5
    Prepared statement...........................................     6
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................     7
    Prepared statement...........................................     9
Hon. Greg Walden, a Representative in Congress from the State of 
  Oregon, opening statement......................................    10
    Prepared statement...........................................    12
Hon. Debbie Dingell, a Representative in Congress from the State 
  of Michigan, prepared statement................................   126

                               Witnesses

Jay Inslee, Governor, State of Washington........................    13
    Prepared statement...........................................    16
    Answers to submitted questions...............................   171
Stephen K. Benjamin, Mayor, City of Columbia, South Carolina.....    57
    Prepared statement...........................................    61
    Answers to submitted questions...............................   175
Jerry F. Morales, Mayor, City of Midland, Texas..................    77
    Prepared statement...........................................    80
    Answers to submitted questions...............................   183
Jacqueline M. Biskupski, Mayor, Salt Lake City, Utah.............    87
    Prepared statement...........................................    89
Daniel C. Camp III, Chairman, Beaver County Board of 
  Commissioners, Beaver County, Pennsylvania.....................    99
    Prepared statement...........................................   102
    Answers to submitted questions...............................   185
James Brainard, Mayor, City of Carmel, Indiana...................   112
    Prepared statement...........................................   114
    Answers to submitted questions...............................   186

                           Submitted Material

Report of the Bureau of Business and Economic Research, 
  University of Montana, ``The Economic Impact of the Early 
  Retirement of Colstrip Units 3 and 4,'' June 2018, submitted by 
  Mr. Tonko\1\
Letter of April 2, 2019, from William B. Wescott, Mayor, City of 
  Rock Falls, Illinois, to Mr. Shimkus, submitted by Mr. Tonko...   127
Article of March 28, 2019, ``In small towns across the nation, 
  the death of a coal plant leaves an unmistakable void,'' by 
  Brady Dennis and Steven Mufson, Washington Post, submitted by 
  Mr. Tonko......................................................   130
Report of Energy Innovation and Vibrant Clean Energy, ``The Coal 
  Cost Crossover: Economic Viability of Existing Coal Compared to 
  New Local Wind and Solar Resources,'' by Eric Gimon, et al., 
  March 2019, submitted by Mr. Tonko\1\

----------

\1\ The information has been retained in committee files and also is 
available at https://docs.house.gov/Committee/Calendar/
ByEvent.aspx?EventID=109745.
Annual report of the United States Climate Alliance, ``Fighting 
  for our Future: Growing our economies and protecting our 
  communities through climate leadership,'' 2018, submitted by 
  Mr. Tonko\1\
Article of March 26, 2019, ``They Grew Up Around Fossil Fuels. 
  Now Their Jobs Are in Renewables,'' by John Schwartz, New York 
  Times, submitted by Mr. Tonko..................................   135
Article of March 28, 2019, ``Montana Senate advances bill to aid 
  NorthWestern purchase of Colstrip 4 share,'' KPAX, submitted by 
  Mr. Tonko......................................................   149
Statement of the Institute for Energy Research, ``China's New 
  Environmental Problem: Battery Disposal,'' October 13, 2017, 
  submitted by Mr. Flores........................................   152
Statement of the Institute for Energy Research, ``The Mounting 
  Solar Waste Problem,'' September 12, 2018, submitted by Mr. 
  Flores.........................................................   155
Statement of Amnesty International, ``Amnesty challenges industry 
  leaders to clean up their batteries,'' March 21, 2019, 
  submitted by Mr. Flores........................................   159
Article of August 17, 2018, ``Will Your Electric Car Save the 
  World or Wreck It?,'' Engineering.com, submitted by Mr. Flores.   163

----------

\1\ The information has been retained in committee files and also is 
available at https://docs.house.gov/Committee/Calendar/
ByEvent.aspx?EventID=109745.

 
   LESSONS FROM ACROSS THE NATION: STATE AND LOCAL ACTION TO COMBAT 
                             CLIMATE CHANGE

                              ----------                              


                         TUESDAY, APRIL 2, 2019

                  House of Representatives,
    Subcommittee on Environment and Climate Change,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:02 a.m., in 
the John D. Dingell Room 2123, Rayburn House Office Building, 
Hon. Paul Tonko (chairman of the subcommittee) presiding.
    Members present: Representatives Tonko, Clarke, Peters, 
Barragan, Blunt Rochester, Soto, Schakowsky, McNerney, Ruiz, 
Pallone (ex officio), Shimkus (subcommittee ranking member), 
Rodgers, McKinley, Johnson, Long, Flores, Mullin, Carter, 
Duncan, and Walden (ex officio).
    Also present: Representative Gianforte.
    Staff present: Jeffrey C. Carroll, Staff Director; Adam 
Fischer, Policy Analyst; Jean Fruci, Energy and Environment 
Policy Advisor; Tiffany Guarascio, Deputy Staff Director; 
Caitlin Haberman, Professional Staff Member; Rick Kessler, 
Senior Advisor and Staff Director, Energy and Environment; 
Brendan Larkin, Policy Coordinator; Dustin J. Maghamfar, Air 
and Climate Counsel; Mike Bloomquist, Minority Staff Director; 
Jerry Couri, Minority Deputy Chief Counsel, Environment; Peter 
Kielty, Minority General Counsel; Mary Martin, Minority Chief 
Counsel, Energy and Environment; Brandon Mooney, Minority 
Deputy Chief Counsel, Energy; Brannon Rains, Minority Staff 
Assistant; Zach Roday, Minority Director of Communications; and 
Peter Spencer, Minority Senior Professional Staff Member, 
Energy and Environment.
    Mr. Tonko. The Subcommittee on Environment and Climate 
Change will now come to order. I recognize myself for 5 minutes 
for the purpose of an opening statement.

   OPENING STATEMENT OF HON. PAUL TONKO, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEW YORK

    In February, this subcommittee held a hearing examining 
President Trump's decision to withdraw the United States from 
the Paris Agreement. Since that announcement, States, cities, 
businesses, and universities across the country have stepped up 
to say they are still in.
    They are not only making pledges but are taking concrete 
actions. While this administration has failed to rise to the 
challenge of our climate crisis, others are leading the way and 
keeping our national emissions reduction targets within reach.
    Investing in infrastructure and creating local jobs and 
transitioning to a clean energy economy are goals that leaders 
on both sides of the aisle at all levels of government should 
be able to support.
    That is why 23 States have joined the U.S. Climate 
Alliance. More than 400 local governments have joined the 
Climate Mayors network, organizations that are helping State 
and local governments work together and encourage greater 
action.
    Today, we have a chance to learn from some of the elected 
officials now leading our nation's climate response. This 
includes a former colleague who served on this committee, 
Governor Jay Inslee of Washington State.
    Thank you, Governor, and welcome back to the Energy and 
Commerce Committee. During his time here, Governor Inslee was a 
leader on clean energy and climate issues.
    He played a major role in developing the American Clean 
Energy and Security Act, and in transformative clean energy 
investments included in the American Recovery and Reinvestment 
Act.
    He also cofounded the House Sustainable Energy and 
Environment Coalition. I was at that charter effort and I now 
am proud to say that I cochair today's efforts with SEEC.
    Governor Inslee, along with former Governor Jerry Brown and 
my home State Governor, Andrew Cuomo, founded the U.S. Climate 
Alliance. The States in the alliance represent more than one-
half of the U.S. population and almost three-fifths of the U.S. 
economy.
    I cannot think of a better witness to share the experiences 
of States transitioning to a cleaner, healthier, more 
competitive, and more sustainable economy.
    Local governments are also doing their part implementing 
solutions to transition their communities and create good-
paying jobs while doing it.
    Today we ask what can Congress learn from our State and 
local experiences and how can our Federal Government be a 
better partner in these efforts?
    This committee has established itself in recent years as a 
force for bipartisan and environmental legislation including 
drinking water infrastructure, Brownfields redevelopment, and 
nuclear waste cleanup, and in every case we started with these 
same questions.
    Our response to climate action should be no different. We 
are at a crossroads in the climate crisis. We are going to meet 
this crisis head on. We will need every idea and every proposal 
we can muster.
    I recently released a set of climate principles that should 
help guide our efforts in Congress to develop legislation. 
Before coming to Congress, I ran a State energy office and 
served in State and county government.
    I know how much work gets done at these levels. They do not 
have the luxury of burying their heads in the sand when climate 
change comes to their communities and threatens their 
constituents.
    It is falling upon them to harden their infrastructure and 
deal with increasingly frequent and severe wildfires, flooding, 
droughts, and air quality issues.
    These disasters jeopardize property values and undermine 
local tax bases. In some cases, they threaten future economic 
development and revitalization, especially waterfront 
development.
    We have seen the damaging effects of climate change extend 
far beyond natural disasters. It is hurting tourism, 
recreation, agricultural production, and other industries that 
many American communities rely upon.
    Empowering State, local, Tribal, and territorial governance 
needs to be at the foundation of our climate response in 
Congress. State and local leaders are often in the best 
position to enact innovative policies to promote a cleaner a 
cleaner economy and deal with climate damage.
    We also need to recognize that we live in a big country. 
Each State and region faces unique challenges. Program 
flexibility is indeed critical.
    Today, as we hear from mayors from across the country, we 
need to make sure they have the tools and resources necessary 
to meet their needs. Some solutions will be best suited for 
Federal action. But a comprehensive approach will take all 
hands on deck.
    Other levels of government will need to adopt policies that 
work for their unique local conditions. A few of these locally 
driven programs may include efforts to strengthen community 
resilience, increase energy efficiency through building codes 
and energy benchmarking, improve the efficiency and operation 
of municipal buildings, and promote cleaner transportation 
options including transit and pedestrian and bicycle 
infrastructure.
    But despite the exciting testimony we will hear this 
morning, let us not fool ourselves. Subnational action is not a 
substitute for greater Federal leadership. America's response 
to the climate crisis needs to be a partnership and, currently, 
the Federal Government is simply not holding up its end of the 
bargain.
    And with that, I yield back.
    [The prepared statement of Mr. Tonko follows:]

                 Prepared Statement of Hon. Paul Tonko

    In February, this subcommittee held a hearing examining 
President Trump's decision to withdraw the United States from 
the Paris Agreement.
    Since that announcement, States, cities, businesses, and 
universities across the country have stepped up to say they are 
still in. And they are not only making pledges but are taking 
concrete actions.
    While this administration has failed to rise to the 
challenge of our climate crisis, others are leading the way and 
keeping our national emissions reduction targets within reach.
    Investing in infrastructure, creating local jobs, and 
transitioning to a clean energy economy are goals that leaders 
on both sides of the aisle, at all levels of government, should 
be able to support.
    That is why 23 States have joined the U.S. Climate 
Alliance, and more than 400 local governments have joined the 
Climate Mayors network; organizations that are helping State 
and local governments work together and encourage greater 
action.
    Today, we have a chance to learn from some of the elected 
officials now leading our nation's climate response.
    This includes a former colleague who served on this 
committee, Governor Jay Inslee of Washington.
    Thank you, Governor, and welcome back to the Energy and 
Commerce Committee.
    During his time here, Governor Inslee was a leader on clean 
energy and climate issues. He played a major role in developing 
the American Clean Energy and Security Act and in 
transformative clean energy investments included in the 
American Recovery and Reinvestment Act. He also cofounded the 
House Sustainable Energy and Environment Coalition, which I am 
proud to cochair today.
    Governor Inslee, along with former Governor Jerry Brown and 
my Governor, Andrew Cuomo, founded the U.S. Climate Alliance. 
The States in the Alliance represent more than half of the U.S. 
population and almost three-fifths of the U.S. economy.
    I cannot think of a better witness to share the experiences 
of States transitioning to a cleaner, healthier, more 
competitive, and more sustainable economy.
    Local governments are also doing their part, implementing 
solutions to transition their communities and create good 
paying jobs while doing it.
    Today we ask: What can Congress learn from State and local 
experiences? And how can our Federal Government be a better 
partner in these efforts?
    This committee has established itself in recent years as a 
force for bipartisan environmental legislation including 
drinking water infrastructure, brownfields redevelopment, and 
nuclear waste cleanup.
    And in every case we started with these same questions.
    Our response to climate action should be no different.
    We are at a crossroads in the climate crisis. If we are 
going to meet this crisis head on, we will need every idea and 
proposal we can muster. I recently released a set of climate 
principles that should help guide our efforts in Congress to 
develop legislation.
    Before coming to Congress, I ran a State energy office and 
served in State and county government. I know how much work 
gets done at these levels. They do not have the luxury of 
burying their heads in the sand when climate change comes to 
their communities and threatens their constituents.
    It is falling upon them to harden their infrastructure and 
deal with increasingly frequent and severe wildfires, flooding, 
droughts, and air quality issues.
    These disasters jeopardize property values and undermine 
local tax bases. In some cases, they threaten future economic 
development and revitalization, especially waterfront 
development.
    We have seen the damaging effects of climate change extend 
far beyond natural disasters. It is hurting tourism, 
recreation, agricultural production, and other industries that 
many American communities rely on.
    Empowering State, local, Tribal, and territorial 
governments needs to be at the foundation of our climate 
response in Congress.
    State and local leaders are often in the best position to 
enact innovative policies to promote a cleaner economy and deal 
with climate damage.
    We also need to recognize that we live in a big country. 
Each State and region faces unique challenges. Program 
flexibility is critical.
    Today, as we hear from mayors from across the country, we 
need to make sure they have the tools and resources necessary 
to meet their needs.
    Some solutions will be best suited for Federal action, but 
a comprehensive approach will take all hands on deck. Other 
levels of governments will need to adopt policies that work for 
their unique local conditions.
    A few of these locally driven programs may include efforts 
to strengthen community resilience, increase energy efficiency 
through building codes and energy benchmarking, improve the 
efficiency and operation of municipal buildings, and promote 
cleaner transportation options, including transit and 
pedestrian and bicycle infrastructure.
    But despite the exciting testimony we will hear this 
morning, let's not fool ourselves. Subnational action is not a 
substitute for greater Federal leadership. America's response 
to the climate crisis needs to be a partnership, and currently 
the Federal Government is not holding up its end of the 
bargain. I yield back.

    Mr. Tonko. Before we recognize our ranking Republican for 
the committee--the Republican leader for the subcommittee--I 
ask unanimous consent for Representative Gianforte of Montana 
to participate in today's subcommittee hearing, including the 
opportunity to ask questions of witnesses and submit a written 
opening statement into the record.
    [Laughter.]
    Mr. Tonko. I thought I heard a whimper, but we didn't. 
Without objection, so ordered.
    With that, the Chair now recognizes Mr. Shimkus, our 
ranking Republican for the Subcommittee on Environment and 
Climate Change, for 5 minutes for his opening statement.

  OPENING STATEMENT OF HON. JOHN SHIMKUS, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Shimkus. Thank you, Mr. Chairman, and welcome back, 
Governor Inslee. There is no question ever since your time on 
the committee that you have been a vocal, passionate advocate 
for Federal policies to reduce greenhouse gas emissions.
    In fact, as I was thinking about our chance to visit today, 
you were for climate change before climate change was cool. You 
are trying to save the planet while I was trying to save jobs 
and the economy, and we served on some panels debating that 
years ago, and I also remember--I think you hit my slider for a 
double in the congressional baseball game but don't tell 
anybody that.
    Some of your policies and ideas may not be supportable by 
our side of the aisle. The proposals may not even be 
supportable in portions of your home State.
    But you have thought a lot about climate policy. We have 
worked well together in the past. So I look forward to your 
testimony this morning.
    Mr. Chairman, when we began this subcommittee's climate 
hearings at the beginning of February, I made a point that just 
because you agree climate change is a risk to address does not 
mean that you must accept unquestionably the standard Democrat 
and climate activist solutions to the problem.
    For too long this has been a false choice in the policy 
debate where, if Members question the cost and effectiveness of 
solutions, they are portrayed as not being serious about the 
problem.
    I would suggest that if we are serious about the problem we 
should examine the cost and effectiveness of proposed policies. 
For nearly 30 years the standard treaties and international 
requirements have not worked so well.
    In 1990, energy-related carbon dioxide emissions were 20.5 
gigatons. By 2018, energy-related CO<INF>2</INF> emissions had 
increased to 33.2 gigatons, or by 62 percent, according to the 
most recent report from the International Energy Agency.
    Between 2017 and 2018 alone, global emissions of carbon 
dioxide increased by 560 million metric tons, a half a gigaton. 
China's emissions increased by 230 million metric tons, or a 
little more than 40 percent of the worldwide increase.
    U.S. energy emissions also tracked up, but as IEA notes, 
despite this increase, emissions in the United States remain 
around the 1990 levels, which is 14 percent and 800 million 
tons of CO<INF>2</INF> below their peak in the year 2000.
    This is the largest absolute decline among all countries 
since 2000. The United Nations' own November 2018 Emissions Gap 
Report states that nations will still have to triple their 
efforts to meet the Paris Agreement's basic goals.
    Yet, given the reaction to even modest targets in Europe 
and elsewhere and the realities of future fossil energy demand, 
this is not a realistic prospect.
    The point here is the scale of the global energy and 
industrial growth should put the effectiveness over U.S. 
actions in perspective.
    The focus on the Obama administration's economy wide 
emissions commitments does not appear to be a realistic 
solution to global emissions growth, though enforcing the 
commitments here at home could create realistic hardship on our 
electricity, transportation, and industrial sectors in 
communities around the nation.
    We will hear today what States and cities associated with 
the We Are Still In coalition are doing to reduce emissions and 
take other actions to address climate change.
    I look forward to what we can learn, especially about 
preparing for future climate impacts. But I think we should pay 
close attention to the testimony of two of the elected 
officials who we will hear from this morning, Mayor Jerry 
Morales of Midland, Texas, and Commissioner Daniel Camp, who 
chairs the Board of County Commissioners in Beaver County, 
Pennsylvania, over the border from Mr. Johnson and Mr. 
McKinley's district in the upper Ohio River Valley.
    They provide powerful examples of what our oil and gas 
revolution in the United States has meant to communities in 
terms of tax base, quality of life, economic potential, and 
community and environmental health.
    These officials can testify as to what a focus on energy 
access, affordable energy, and embracing technological 
development can mean for the economic vitality of communities.
    Their experience is experience developing nations around 
the world are striving for and which the U.S. should promote. 
The community wealth and security, the high-quality jobs, and 
manufacturing prospects, the economic ability to strengthen 
infrastructure and protect communities from natural disasters 
are benefits that we should not abandon in the search of 
climate solutions.
    Instead, these are essential attributes we should embrace 
as providing the potential for continued innovation that will 
actually foster the technologies necessary to reduce the global 
emissions.
    And, again, it is great to see you back. Welcome back to 
2123 and I look forward to hearing your testimony and answering 
our questions.
    And with that, Mr. Chairman, I yield back my time.
    [The prepared statement of Mr. Shimkus follows:]

                Prepared Statement of Hon. John Shimkus

    Thank you, Mr. Chairman. And welcome Governor Inslee.
    There's no question, ever since your time on the committee, 
that you have been a vocal and passionate advocate for Federal 
policies to reduce greenhouse gas emissions.
    Some of your policy ideas may not be supportable by our 
side of the aisle. The proposals may not even be supportable in 
your home State, but you have thought a lot about climate 
policy, we have worked well together in the past, and so I look 
forward to your testimony this morning.
    Mr. Chairman, when we began the subcommittee's climate 
hearings at the beginning of February, I made a point that, 
just because you agree climate change is a risk to address, 
does not mean that you must accept unquestionably the standard 
Democrat and climate activist solutions to the problem.
    For too long this has been a false choice in the policy 
debate, where if Members question the cost and effectiveness of 
solutions, they are portrayed as not being serious about the 
problem. I would suggest, if you are serious about the problem, 
you should examine the costs and effectiveness of proposed 
policies.
    For nearly 30 years, the standard treaties and 
international requirements have not worked so well. In 1990, 
energy-related carbon dioxide emissions were 20.5 gigatons. By 
2018, energy-related CO<INF>2</INF> emissions had increased to 
33.2 gigatons, or by 62 percent, according to the most recent 
report from the International Energy Agency.
    Between 2017 to 2018 alone, global emissions of carbon 
dioxide increased by 560 million metric tons--a half gigaton. 
China's emissions increased by 230 million metric tons, or a 
little more than 40 percent of the worldwide increase.
    U.S. energy emissions also tracked up, but as the IEA 
notes: ``Despite this increase, emissions in the United States 
remain around their 1990 levels [which is] 14% and 800 million 
tons of CO<INF>2</INF> below their peak in 2000. This is the 
largest absolute decline among all countries since 2000.''
    The United Nation's own November 2018 Emissions Gap Report 
states that nations will still have to triple their efforts to 
meet the Paris Agreement's basic goals. Yet given the reaction 
to even modest targets in Europe and elsewhere and the 
realities of future fossil energy demand, this is not a 
realistic prospect.
    The point here is the scale of the global energy and 
industrial growth should put the effectiveness of our U.S. 
actions in perspective.
    The focus on the Obama administration's economywide 
emissions commitments does not appear to be a realistic 
solution to global emissions growth. Though enforcing the 
commitments here at home could create realistic hardship on our 
electricity, transportation, and industrial sectors in 
communities around the nation.
    We will hear today what States and cities associated with 
the ``we are still in'' coalition are doing to reduce emissions 
and take other actions to address climate change. I look 
forward to what we can learn, especially about preparing for 
future climate impacts.
    But I think we should pay close attention to the testimony 
of two of the elected officials we will hear from this morning: 
Mayor Jerry Morales, of Midland, Texas, and Commissioner Daniel 
Camp, who chairs the Board of County Commissioners in Beaver 
County, Pennsylvania--over the border from Mr. Johnson and Mr. 
McKinley's districts in the upper Ohio River Valley.
    They provide powerful examples of what our oil and gas 
revolution in the United States has meant to communities, in 
terms of jobs, tax base, quality of life, economic potential 
and community and environmental health. These officials can 
testify as to what a focus on energy access, affordable energy, 
and embracing technological development can mean for the 
economic vitality of communities.
    Their experience is the experience developing nations 
around the world are striving for and which the U.S. should 
promote. The community wealth and security, the high-quality 
jobs and manufacturing prospects, the economic ability to 
strengthen infrastructure and protect communities from natural 
disasters are benefits that we should not abandon in search of 
climate solutions.
    Instead, these are essential attributes we should embrace 
as providing the potential for continued innovation that will 
actually foster the technologies necessary to reduce global 
emissions.

    Mr. Tonko. Thank you. The gentleman yields back.
    The Chair now recognizes Mr. Pallone, chairman of the full 
committee, for 5 minutes for his opening statement.

OPENING STATEMENT OF HON. FRANK PALLONE, Jr., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Chairman Tonko.
    This morning we are going to be hearing from elected 
representatives of State and local governments about what they 
are doing to address climate and their actions are more 
important than ever, considering the Trump administration 
denies climate change is happening and continues to push 
policies that will only make it worse.
    And I am particularly pleased to welcome Governor Jay 
Inslee back to the Committee on Energy and Commerce where he 
served with many of us while he was in Congress. You look good. 
You don't--no less weary from being the Governor. A lot of 
Governors I meet they, like, kind of deteriorate.
    [Laughter.]
    Mr. Pallone. But anyway, Governor Inslee's focus on climate 
change is not new. In 2002, he championed an Apollo-style 
effort to support technologies and policies to transition the 
nation to a low-carbon economy and now, as Governor of 
Washington, he is showing that addressing the climate crisis is 
not only good policy--it is good business.
    He also cofounded the bipartisan U.S. climate alliance, 
leading the way for other States to take meaningful steps 
towards fulfilling our commitments under the Paris Climate 
Agreement.
    Now, the mayors on our second panel reflect the dedication 
and ingenuity of local leaders facing the climate crisis head 
on and the success of nonpartisan community-focused solutions.
    The impressive work of the leaders here today is 
heartening. But they can't address the magnitude of the climate 
crisis alone. They need the support and leadership of a strong 
Federal partner.
    State and local government initiatives to reduce greenhouse 
gas pollution stand in stark contrast to the recent actions by 
the Trump administration. This administration is doing all it 
can to lean in to more greenhouse gas pollution, more global 
warming, and a more uncertain and dangerous future for our 
country and the rest of the world.
    And scientists warn us that some of these impacts will get 
worse if we fail to act now, and the evidence is very clear, 
particularly to the communities on the front line of climate 
change.
    Whether they are represented by Democrats or Republicans, 
they are well aware that the costs of climate change go far 
beyond the cost to which we can attach a dollar figure.
    Now, you know, my district is one where we were hit the 
hardest, I think, by Superstorm Sandy and, you know, many of my 
communities were devastated and haven't even fully recovered.
    I have to tell you, I don't--I have a lot of Republican 
mayors, council people, county legislators, and it doesn't 
matter whether they are Democrat or Republican. They all want 
us to address climate change. It is not and should not be a 
partisan issue.
    So today, as we sit here, there is record flooding in the 
Midwest, claiming lives and destroying homes, communities, and 
businesses that people spent a lifetime building, and those 
communities know that the time for debate and inaction should 
have been over long ago.
    State and local governments acting on climate change are 
positioning themselves as leaders in new low-carbon economy. 
Seventeen States with a Climate Alliance reported last year 
that they attracted more than $110 billion in clean energy and 
those are, you know, obviously, investments--create jobs--and 
they realize billions of dollars in public health and 
environmental benefits.
    Our Nation has always been at the forefront in the creation 
of new industries, new technologies, and new jobs and this 
committee has always been a leader and we should strive to 
improve upon that record.
    Unfortunately, the Trump administration wants to take us 
backwards by withdrawing from the Paris Agreement. We simply 
can't allow that to happen, which is why Democrats have 
introduced H.R. 9, the Climate Action Now Act.
    This legislation would stop President Trump from pulling 
out of the Paris Agreement and require him to submit a plan 
from meeting our obligations under the pact.
    We will be marking up that legislation tomorrow here in the 
full committee. But we can't stop there. I would like to move 
legislation that will support State and local government 
efforts to address climate change and give Members on both 
sides of the aisle an opportunity to help communities save 
money, create jobs, and cut our greenhouse gas emissions.
    So, Governor Inslee, it is not that we want you to just 
talk about what you are doing. We want you to give us ideas 
about what we can do to help you at the State and local level.
    And taking action on climate will lead to the development 
of new industries and new jobs and make our communities safer 
and more resilient.
    But, again, as I said before, State and local governments 
can't do it alone. The Federal Government must be strong as a 
partner by expanding the use of clean energy and reducing 
fossil fuel emissions and the scientific communities continues 
to warn us about the dangers of unchecked greenhouse gas 
pollution.
    We have to heed their warning. We have the technology to 
address this problem but we need to apply it more broadly and 
more aggressively, and State and local governments are 
demonstrating that it can be done and we should join with them 
and reaffirm that the U.S. is indeed committed to acting on 
climate.
    So thank you again for being here, Jay. Thank you for all 
your leadership, both when you were here and now as Governor.
    I yield back.
    [The prepared statement of Mr. Pallone follows:]

             Prepared Statement of Hon. Frank Pallone, Jr.

    This morning we will hear from elected representatives of 
State and local governments about what they are doing to 
address climate change. Their actions are more important than 
ever considering the Trump administration denies climate change 
is happening and continues to push policies that will only make 
it worse. I am particularly pleased to welcome Governor Jay 
Inslee back to the Committee on Energy and Commerce where he 
served with many of us while he was in Congress.
    Governor Inslee's focus on climate change is not new. In 
2002, he championed an Apollo-style effort to support 
technologies and policies to transition the nation to a low-
carbon economy. Now, as Governor of Washington, he is showing 
that addressing the climate crisis is not only good policy, it 
is good business. He also cofounded the bipartisan U.S. Climate 
Alliance, leading the way for other States to take meaningful 
steps toward fulfilling our commitments under the Paris Climate 
Agreement.
    The mayors on our second panel reflect the dedication and 
ingenuity of local leaders facing the climate crisis head-on, 
and the success of nonpartisan, community-focused solutions. 
The impressive work of the leaders here today is heartening, 
but they can't address the magnitude of the climate crisis 
alone. They need the support and leadership of a strong Federal 
partner.
    State and local government initiatives to reduce greenhouse 
gas pollution stand in stark contrast to the recent actions by 
the Trump administration. This administration is doing all it 
can to ``lean in'' to more greenhouse gas pollution, more 
global warming, and a more uncertain and dangerous future for 
our country and the rest of the world.
    Scientists warn us some of these impacts will get worse if 
we fail to act now, and the evidence is very clear, 
particularly to the communities on the front line of climate 
change. Whether they are represented by Democrats or 
Republicans, they are well aware that the costs of climate 
change go far beyond the ones to which we can attach a dollar 
figure.
    This is true in my district where Superstorm Sandy 
devastated communities up and down the shore, along with many 
others in the Northeast. Today, as we sit here, there is record 
flooding in the Midwest claiming lives and destroying homes, 
communities, and businesses that people spent a lifetime 
building. Those communities know that the time for debate and 
inaction should have been over long ago.
    State and local governments acting on climate change are 
positioning themselves as leaders in a new low-carbon economy. 
Seventeen States of the Climate Alliance reported last year 
that they attracted more than $110 billion in clean energy 
investments in the past decade. And, they realized billions of 
dollars in public health and environmental benefits.
    Our Nation has always been at the forefront in the creation 
of new industries, new technologies, and new jobs. We should 
strive to improve upon that record.
    Unfortunately, the Trump administration wants to take us 
backwards by withdrawing from the Paris Agreement. We simply 
cannot allow that to happen, which is why Democrats have 
introduced H.R. 9, the Climate Action Now Act. This legislation 
would stop President Trump from pulling out of the Paris 
Agreement and require him to submit a plan for meeting our 
obligations under that pact. We will be marking up that 
legislation tomorrow here in the full committee.
    But we cannot stop there. I plan to move legislation that 
will support State and local government efforts to address 
climate change and give Members on both sides of the aisle an 
opportunity to help communities save money, create jobs and cut 
their greenhouse gas emissions.
    Taking action on climate will lead to the development of 
new industries and new jobs. It will also make our communities 
safer and more resilient. But State and local governments 
cannot do it on their own. The Federal Government must be a 
strong partner by expanding the use of clean energy and 
reducing fossil fuel emissions.
    The scientific community has warned us for years about the 
dangers of unchecked greenhouse gas pollution. We cannot ignore 
their warning. We have the technology to address this problem, 
but we need to apply it more broadly and more aggressively. 
State and local governments are demonstrating that it can be 
done. We should join with them and reaffirm that the United 
States is indeed committed to acting on climate.
    Thank you, I yield back.

    Mr. Tonko. The gentleman yields back.
    The Chair now recognizes Mr. Walden, Republican leader of 
the full committee, for 5 minutes for his opening statement.

  OPENING STATEMENT OF HON. GREG WALDEN, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF OREGON

    Mr. Walden. Well, good morning, Mr. Chairman, and thanks 
for having this hearing. As you know, you and I have discussed 
Republicans are ready and willing to work with you on policies 
to continue America's leadership role in developing innovative 
technologies to produce energy with little or no emissions.
    Republicans are ready and willing to work with you on 
conservation, on innovation, on adaptation, and preparation 
policies that help the environment and do not harm consumers.
    In fact, we have a pretty clear record of bipartisan 
legislation from this committee to do just that. Republicans 
have worked with Democrats over the past several Congresses to 
remove regulatory barriers to new technological advances in 
power generation, from hydroelectric power to small modular 
nuclear, from carbon capture and storage incentives to power 
grid reforms because innovation is where the long-term 
solutions to climate change are.
    We want America to lead the world in innovation as we 
always have, especially on clean energy and environmental 
cleanup. It is disappointing today that this hearing is really 
more about the politics of climate change than rolling up our 
sleeves and getting to work on domestic solutions.
    I can't recall a time in my more than 18 years on the 
committee where we have cleared the decks for a presidential 
candidate to come take center stage.
    Now, I want to join those in welcoming Governor Inslee back 
to the Energy and Commerce Committee room. We also served 
together on the Resources Committee.
    And as an advocate for the Green New Deal, I am sure you 
would agree with me that it is time that this committee 
actually had a hearing on that legislation.
    Both of my senators signed on and were at the news 
conference when it was announced, and I know one of the biggest 
proponents, the new Congresswoman from New York, said it was 
unfair for the Senate to vote on the Green New Deal without 
first having had a hearing.
    So we should take note of her comments and schedule a 
hearing, Mr. Chairman, in this committee.
    Meanwhile, as I noted a few weeks ago, the focus on U.S. 
commitments in the Paris Agreement distracts from the work we 
could get done together. Certainly, many States and cities 
around the United States have made commitments to meet the 
Paris goals. But these commitments don't necessarily work 
nationally.
    However, I do believe this hearing will be useful to review 
some of the actions States and cities are taking to adapt and 
become more resilient to a changing climate.
    Now, in the great Pacific Northwest, we have benefitted 
from clean hydroelectric power. We have wind power, we have 
geothermal power, and we have solar power, among other sources.
    And while our energy emissions are better than most, we 
have suffered greatly from the lack of management of our 
Federal forest lands, which are burning up every summer, 
choking our citizens and polluting our atmosphere.
    I know when Governor Inslee was in the House, we went toe 
to toe, and you opposed most of my efforts to get our forests 
back in balance and to reduce the threat of wildfires.
    Now, even in the United Nations Climate Change Panel, they 
called for active forest management. So, hopefully, perhaps 
your views on these matters have changed as you read the IPCC 
reports from 2007 and beyond.
    After this hearing is behind us, Mr. Chairman, I hope we 
can work together as we have in the past to reduce the barriers 
to innovation and unleash the best and brightest among our 
citizens to develop new technologies to help confront the 
climate challenges in the future and put America in the 
driver's seat to lead those technologies and sell them abroad.
    Mr. Chairman, I would also raise the issue that it is 
unfortunate the measure that we will markup tomorrow was only 
introduced on Thursday and it is unfortunate that your 
subcommittee, this one, does not have an opportunity to markup 
that measure.
    That would be the regular order that you are proud of and I 
am proud of, and I am sorry we are not going to have that 
opportunity to have a markup on the underlying legislation. 
Instead, it is going to be taken straight to full committee and 
straight to the floor to meet some arbitrary deadline.
    So with that, Mr. Chairman, thanks again for having this 
hearing. We look forward to working with you where we can, and 
I yield back the balance of my time.
    [The prepared statement of Mr. Walden follows:]

                 Prepared Statement of Hon. Greg Walden

    Thank you, Mr. Chairman.
    As you and I have discussed, Republicans are ready and 
willing to work with you on policies to continue America's 
leadership role in developing innovative technologies to 
produce energy with little or no emissions. Republicans are 
ready and willing to work with you on conservation, innovation, 
adaptation and preparation policies that help the environment 
and don't harm consumers.
    We have a clear record of bipartisan legislation from this 
committee to do just that. Republicans have worked with 
Democrats over the past several congresses to remove regulatory 
barriers to new technological advances in power generation, 
from hydroelectric power to small modular nuclear, from carbon 
capture and storage incentives to power grid reforms. Because 
innovation is where the long-term solutions to climate change 
are. We want America to lead the world in innovation, as we 
always have, especially on clean energy and environmental 
cleanup.
    I realize that today's hearing is more about the politics 
of climate change than rolling up our sleeves and getting to 
work on domestic solutions. I can't recall a time in my more 
than 18 years on this committee where we've cleared the decks 
for a presidential candidate to come take center stage.
    Now, I want join those in welcoming Governor Inslee back to 
the Energy and Commerce Committee. As an advocate for the Green 
New Deal, I'm sure he would agree with me that it's time we had 
a hearing on this legislation.
    Both of my Senators have signed on to the Senate version, 
and I know one of the biggest proponents, the new Congresswoman 
from New York said it was unfair for the Senate to vote on the 
Green New Deal without first having had a hearing. We should 
take note of her comments and schedule such a hearing.
    Meanwhile, as I noted a few weeks ago, the focus on U.S. 
commitments in the Paris Agreement distracts from the work we 
could get done together. Certainly, many States and cities 
around the U.S. have made commitments to meet the Paris goals. 
But these commitments don't necessarily work nationally. 
However, I do believe this hearing will be useful to review 
some of the actions States and cities are taking to adapt and 
become more resilient to a changing climate.
    In the Northwest, we've benefited from clean hydropower, 
wind, geothermal and solar power. And while our energy 
emissions are better than most, we've suffered greatly from the 
lack of management of our Federal forest lands, which are 
burning up every summer, choking our citizens and polluting our 
atmosphere. I know when Governor Inslee was in the House he 
opposed most of my efforts to get our forests back in balance 
and reduce the threat of wildfires. Even the UN's climate 
change panel calls for active forest management, so hopefully 
his views have changed on these matters in the intervening 
years.
    After this hearing is behind us, let's work together, as we 
have in the past, to reduce the barriers to innovation and 
unleash the best and brightest among our citizens to develop 
new technologies to help confront the climate challenges of the 
future.
    I think we're up to the task, Mr. Chairman.

    Mr. Tonko. Thank you. The gentleman yields back.
    The Chair would like to remind Members that, pursuant to 
committee rules, all Members' written opening statements shall 
be made a part of the record.
    Now I would like to introduce our first witness for today's 
hearing, the Honorable Jay Inslee, Governor of the State of 
Washington.
    I want to thank you, Governor, for joining us today. We 
look forward to your testimony. Again, I have to thank you for 
inspiration you provided not only in the House but across 
Congress to look at the climate change issue with great 
seriousness and approaching it in a scientific and evidence-
based way, and thank you for leading us in that effort.
    Before we begin, I would like to explain the lighting 
system in front of our witnesses. There is a series of lights. 
The light will initially be green at the start of your opening 
statement. The light will turn yellow when you have 1 minute 
left.
    Please wrap up your testimony at that point. The light will 
turn red, and your time expires, and I am certain you recall 
those days but always a refresher course is helpful.
    At this time, the Chair----
    Mr. Inslee. We never abided by them.
    [Laughter.]
    Mr. Tonko. There you go.
    So at this time, the Chair will recognize the Honorable Jay 
Inslee for 5 minutes to provide his opening statement, and 
again, welcome, Governor.

     STATEMENT OF JAY INSLEE, GOVERNOR, STATE OF WASHINGTON

    Mr. Inslee. I thank you, Chair Pallone and Tonko, 
Representative Shimkus, Walden, our Congresswoman Rodgers. 
Thanks for having me.
    I can assure you, in the last 6 years none of you have 
deteriorated at all from this front except for the Shimkus 
fastball. That has lost 5 miles an hour. But that is another 
matter.
    I think I can share just as a top comment here three things 
that I think there is wide agreement on out in the States, if I 
can report.
    Number one, we recognize that we are the first generation 
to feel the sting of climate change and we are the last 
generation that can actually do something about it.
    Number two, we recognize this is a moment of great peril 
but it also a moment of great economic promise with tremendous 
job creation opportunities that I will talk about in a moment.
    And number three, I think we have decided, because the 
facts are in, there are a heck of a lot more jobs fighting 
climate change than there is in denying climate change, and 
that is good news for the United States, and I will talk about 
that and success in many of our States in a few moments.
    So we do hope that we can help the Federal Government take 
a look at some of the actions that States are taking in the 
hopes that the Federal Government can join the States in really 
working to build a clean energy economy. So I hope I can be 
helpful to you in this regard.
    I won't dwell too much on the peril part of this. It should 
be kind of obvious to us with the floods and the hurricanes and 
the fires.
    But I will tell you that when you visited Paradise, 
California--when I did, a town of 25,000--and you go for an 
hour at dark and there is nobody there, and it looks like a 
postapocalypse movie, you know we have got to do something 
about climate change. So I hope that you all can get together 
to figure out some things to do.
    I want to point to our State's experience because I think 
it has been helpful. The first thing I want to say about our 
State's experience is we have been dedicated to developing a 
clean energy economy and in part, because of that, we have the 
best economy in the United States.
    We have the fastest GDP growth, the fastest job growth, and 
the fastest wage growth in the United States. Business Insider 
magazine said we are the best place to do business. OxFam said 
we are the best place to work, and that is in part because of 
the clean energy policies that we have adopted, and we have had 
some considerable success.
    We have built a wind turbine industry from zero to 3,000 
megawatts in the last 12 years. In a clean energy fund that we 
have developed, we have leveraged about $200 million of private 
equity and now are putting people to work.
    We are on track of putting $50,000 electric cars on our 
road including the Governor's little General Motors Bolt built 
in Orion, Michigan, with American workers--a spiffy little safe 
car. Those policies are working in my State. But we are not 
done.
    We now, in my legislature, have several bills to move this 
clean energy revolution forward--100 percent electrical bill--
excuse me, 100 percent clean grid bill, which is advancing in 
my State, an improvement of our renewable energy portfolio; a 
provision to make sure that we wean ourself off of coal-fired 
electricity and several other bills I am happy to talk about in 
more length.
    But I am not the only Governor and the only State that has 
been moving forward. We have had significant advances across 
the United States.
    In Colorado, Jared Polis just signed an order accelerating 
widespread electrification of cars and busses. In New Jersey, 
Delaware, and Virginia they are considering adoption of a 
regional greenhouse gas initiative that has been modeled 
somewhat on the RGGI program.
    And New Mexico just voted to double renewable energy use in 
the State by 2025 and have joined Hawaii and California by 
calling for 100 percent electricity to be carbon free by 2045.
    Illinois has just passed the Future Energy Jobs Act, which 
has expanded solar energy in setting 25 percent renewable 
energy goals, and because of these actions we are experiencing 
profound transformation of the economy to a clean energy 
economy today.
    Today, there are 3.2 million Americans working in the clean 
energy sector today, and it is the fastest growing sector of 
the economy.
    You know, the number-one fastest growing job classification 
in the United States today is solar panel installer and number 
two is wind turbine technician, and you can't go anywhere in 
this country and not see small businesses putting people to 
work developing clean energy jobs and that is why it is so 
exciting.
    I mean, I just looked at Illinois, for example, because I 
wanted to honor Representative Shimkus. It has 8,633 wind jobs. 
It has 4,879 solar jobs. There are 7,357 electric vehicles on 
the road. This is a 93 percent increase.
    We are in the midst of a great transition and I am hopeful 
that we can help you in some way figure out how to accelerate 
that transition.
    Thanks very much. I look forward to your softball questions 
and gentle criticisms.
    [The prepared statement of Mr. Inslee follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	
    
    Mr. Tonko. And whatever else might follow. Thank you, 
Governor, for your opening statement. We now will move to 
Member questions.
    Each Member will have 5 minutes to ask questions of our 
witness. I will start by recognizing myself for 5 minutes.
    Governor, again, welcome. I know many of my colleagues will 
have questions about how the Federal Government can better 
support your efforts as well as the specific solutions you are 
pursuing in Washington.
    I want to take stock of where we have been. I think back to 
10 years ago, the last time Congress had a meaningful debate on 
climate pollution and the need for and opportunities from a 
clean energy transition.
    During this time, the cost of cleaner alternatives such as 
renewable energy have dropped at previously unimaginable rates. 
Clean energy jobs have been created across our country and a 
greater public awareness of the climate science threat we face 
and of the urgency at which we must respond has taken hold.
    So, Governor, what are the biggest developments of the 
climate debate or policy since you left this House?
    Mr. Inslee. Well, I think that the most significant thing 
that has happened is that our research and some of our policies 
are actually bearing fruit.
    There is a really good news story here. I just had 
breakfast with a woman leader in the clean energy industry and 
she was pointing out that the suite of some of the small 
policies we adopted during the Recovery Act, for instance, 
during some of our tax policies, which have been supremely 
successful driving economic development and driving down the 
cost of these systems.
    So the cost of solar energy in the last 10 years has come 
down 80 percent. The cost of wind turbine energy has come down 
about 20 percent.
    That has been the product to some degree of some of the 
policies that we have adopted and I think that is really an 
optimistic thing to say that when we do put our shoulder to the 
wheel we can drive reductions in cost and, therefore, further 
deployment.
    The other thing I would say is that this has been 
successful not just as an urban but it is an urban and rural 
and it is a small and big State effort. I will just give you an 
example.
    In my State, in part because of some of our policies, some 
of our greatest clean energy job creation are in rural parts of 
our State in smaller communities.
    So the largest, for instance, carbon fiber manufacturer in 
the Western Hemisphere that goes into electric cars is not in 
Seattle. It is in Moses Lake, Washington, in central 
Washington, kind of a smaller town.
    One of the largest biofuels manufacturer is not in Seattle. 
It is Gray's Harbor, Washington, which is a town that has had 
some stress because of the diminution of the forest industry.
    I just went to the ribbon-cutting of the largest solar far 
in our State, which is near Lind, Washington, which is a town 
of 300. So you have these beautiful solar panels surrounded by 
wheat fields. This is an economic development program that is 
available to all Americans throughout our country and I think 
that's a lesson that is important.
    The other thing we have learned is that you can do these 
things with essentially no or de minimis cost to consumers 
because as the technology has come on, we have actually got 
cheaper products.
    So if you are driving an electric car today you have 80--
probably 80 percent lower fuel costs to run your car and that 
is why we are happy in my State to have one of the largest 
percentage of use of electric cars to meet our goals. Those 
things are working.
    Mr. Tonko. So--thank you, Governor--so in that near decade 
that has passed since we last visited this issue, what 
important lessons are the most--that speak most clearly to us 
about learning from our past efforts?
    Mr. Inslee. Well, I think the most important lesson is one 
that is really rarely noted, which is that the cost of inaction 
is enormous. I think that is an important lesson here. Somebody 
asked me about the cost of investment in solar energy. It is a 
lot cheaper than when your town burns down, like Paradise, 
California.
    It is a lot cheaper than the $1.6 billion we have lost in 
agricultural production because of these recent floods. It is a 
lot cheaper than the U.S. Navy is going to have to invest 
because of sea level rise at our Norfolk facility.
    So one of the lessons is these investments pay off 
ultimately if we can reduce the level of damages that we are 
occurring.
    Second is that when you--when you make relatively small 
investments, you can start huge industries. Just give you an 
example.
    So several years ago, we started this little clean energy 
development fund. It was $140 million--relatively small. But it 
is designed to leverage private equity to be in partnership 
with private equity and to help small-scale startups start up.
    Started a little company called UniEnergy which does 
vanadium flow battery, at that time, essentially, research, and 
they brought in some private equity and today that company is 
making the largest vanadium battery in the world, which is 
really important to be able to integrate renewable energy into 
the grid. My neighbor's kid went to work with them a couple 
years ago and really likes the job.
    Now, this is an important issue because, you know, we have 
a President of the United States that says, you know, your 
television will blank out if the wind doesn't blow.
    Well, you know, that is just not true. We have this new 
invention called batteries, and now we are integrating 
batteries into the grid.
    I turned on the first ones--some of the first ones at 
Washington State University. So we know these things work. We 
know that these small policies can develop big, big industries. 
We have seen it happen. We just need to accelerate it.
    Mr. Tonko. Thank you very much, Governor.
    And the Chair now recognizes Representative Shimkus, 
Republican leader of the subcommittee, for 5 minutes.
    Mr. Shimkus. Thank you, Mr. Chairman.
    Jay, welcome back. Nuclear power--where does it fit into 
the this carbon-free society?
    Mr. Inslee. Well, I think that we need to continue to do 
R&D in any potential low-carbon or zero-carbon emission and 
that includes nuclear power.
    I think we need to continue research to figure out whether 
we can solve some of the things we need to solve for nuclear 
power which, obviously--and they are well known to you. We need 
to bring down the cost.
    We need to have a more passive safety system. We would need 
to have something that solved the nuclear waste problem, either 
by eliminating the waste or finding something in the waste.
    And fourth, you would have to win public support. So those 
things would need to happen, and I support R&D on those. Some 
of that is going on in my State right now.
    Mr. Shimkus. Let us follow on the closing of the fuel 
cycle, and you know--you are probably prepared. You and I, 
obviously, worked diligently on this years ago and you 
cosponsored the amendment--you know, the act.
    We have nuclear waste, spent fuel--39 States, 121 
locations. We have a law. That is the '82 nuclear waste policy 
act along with the amendments of '87. Has your position changed 
on finishing the scientific study to see if it's safe to store 
waste at Yucca Mountain?
    Mr. Inslee. Well, I think that we need--I think what the 
last few years have shown is that we need to find a more 
consensus-based approach on waste disposal. I do believe that.
    Mr. Shimkus. But don't you--don't you believe that if a 
prior sitting Federal legislator and a President signed it that 
they have already done that hard work? I mean, the legislative 
branch already passed it. The President signed it into law.
    I think my concern is we are relitigating a law that has 
already passed and in the past--and I am not trying to pile on. 
I consider you a friend.
    But I just hope we would rethink this because closing that 
fuel cycle is part of the solution that we would like to--
because I do think nuclear power, especially major baseload 
power, is critical.
    Some of the wind production tax credits which you talked 
about has really hurt the cost-benefit analysis of nuclear 
power and that is my Exelon, one of them major generators, is 
starting to close nuclear power plants, which is, in essence, 
contrary to this goal of a carbon-free generation world that 
people are trying to push and I think that is something that we 
will talk about as we move on this committee.
    Let me ask another question that deals with--oh, I wanted 
to tell you my son graduated from Western Washington University 
and interned in Olympia. So I am not sure what is happening 
with my family.
    Mr. Inslee. Well, he is going to be a Democrat--I know 
that--if he went to Western, that is for sure.
    [Laughter.]
    Mr. Shimkus. So the--and I want to thank Cathy for getting 
him there. So for the sake--this committee will deal with the 
spent fuel debate. We passed a bipartisan bill out of the--of 
the floor last Congress 340 to 70, I think--bipartisan--and 
more Democrats voted for it than against it.
    Did--can you, for the sake of this committee, just briefly 
talk about the problems you have at Hanford as far as the 
defense toxic floods that we have and those--I don't how many 
containers and buried underneath the ground and you can weave 
the story a lot better than I can.
    Mr. Inslee. Well, one of the problems we have is that the 
administration at the moment is not, at least in our view, 
complying with some of the----
    Mr. Shimkus. No, and I get that, and we can go through 
administrations. Just weave the story about what the challenges 
are there. I mean, we could look at Obama. We can look at Bush. 
We can look at negligence across the spectrum.
    But what do we--I mean, there are how many tanks there at 
Hanford?
    Mr. Inslee. So we have millions of gallons of sludge, as 
you are well worth--knowledgeable about. We are having 
technological challenges and we want to get the vitrification 
plant up and running.
    It would help if the administration, rather than looking 
this as kind of a financial sacrifice zone, will actually help 
make this happen.
    Mr. Shimkus. Yes, and explain for my colleagues who may not 
have been there, what is this sludge? What are we talking 
about?
    Mr. Inslee. Well, we are talking about leftover waste from 
the nuclear facility that one the Cold War and we expect any 
administration, whether it's Republican or Democrat, to help us 
in the cleanup effort. And if you will allow me to finish----
    Mr. Shimkus. And are we not close to the Columbia River?
    Mr. Inslee. Would you like to testify, John, and I will 
just sit here?
    [Laughter.]
    Mr. Shimkus. No, I am just--actually the defense waste and 
the spent fuel is one package, and it's just part--when we have 
to deal with this it's not just spent fuel from nuclear power 
plants. This is a solution to our defense portfolio and that's 
the only reason why I bring it up. I don't----
    Mr. Inslee. That is correct.
    Mr. Shimkus. I am not trying to do the gotcha.
    Mr. Inslee. No, I just--I do want to make the point, 
though, that the administration is not fulfilling its 
obligation to the people of the State of Washington in a 
variety of contexts.
    We have had some safety concerns for workers, particularly, 
that we have been concerned about, and we will continue to be 
diligent to hold this administration's feet to the fire and I 
hope this committee does the same, whether it's Republican or 
Democrat, and right now the administration is not doing its job 
to get this job done, and I think it owes it to the whole 
country and to the State of Washington.
    Mr. Shimkus. We should move the waste. That would be 
helpful.
    [Laughter.]
    Mr. Tonko. The gentleman yields back.
    The Chair now recognizes Mr. Peters for 5 minutes.
    Mr. Peters. Thank you, Mr. Chairman, and thank you, 
Governor, for being here. I am excited about having you here.
    In your testimony, you talk a little bit about the 
accomplishments of the Federal Government. Recently--you are 
not complimentary--you mentioned that the administration has 
rolled back the clean power plan that has poised transition of 
our grids into the 21st century, attacked fuel economy and 
clean car standards that have saved lives and lowered consumer 
costs, gutting modest standards that would have lowered methane 
leaks in the oil and gas industry.
    I don't think that gets enough attention. And increasing 
illegal rules to bring back inefficient equipment and 
appliances that cost consumers money. You might have also 
mentioned that we withdrew from the Paris Agreement and a 
number of other things that have gone in the wrong direction.
    Assuming we could get back to zero and deal with all those 
things, what would be your priorities for Federal action if we 
got back in the game in a significant way?
    Mr. Inslee. Well, let me just follow up on what you said. 
It is important to get back to quote ``zero'' because at zero 
we were making progress.
    These things you rattle off are extremely important, 
extremely effective, and they are not small things, and I 
believe they can be done through executive action of whoever is 
in the office in the future, and should be.
    And I think they flow--the current President's policies on 
this have flowed from a really dangerous pessimism about our 
ability to build a clean energy economy. I think there is too 
much fear about this, and I think if we look at the success we 
have had, we have seen that these things actually work.
    When I heard the President the other day saying that, you 
know, your television will turn off if the wind doesn't blow, I 
don't know why someone has not explained to him the existence 
of batteries.
    I don't--you know, batteries run tweets so I don't know why 
you couldn't understand batteries can run your grid. In fact, 
we are making huge progress in the ability to do that.
    And not just electric batteries. We have pumped storage 
that is now--there is a pump storage program that can put 
hundreds of thousands of people to work in central Washington.
    So I think we have to have a little more optimism and if we 
do follow the can do spirit of America we will embrace these 
executive actions.
    But going forward, I would suggest that the things that the 
States are doing very successfully are things that are a 
template for success federally. That includes 100 percent 
electrical grid goal for electrical grid.
    It includes a clean fuel standard for our transportation 
fuels. It includes a very, very significant expansion of our 
Federal research and development and a whole slew of 
technologies.
    When I was sitting where you were, I noted that we spent 
more money developing one kind of Jeep than we did in the 
entire clean energy research budget of the United States, and 
when you have an existential threat, which is of the equivalent 
of a world war, in some sense, you got to have an R&D budget 
that in fact does that.
    We have shown that increased building codes to be 
consistent with the existing building technology can be very 
effective and we are, hopefully, going to pass a bill at my 
legislature this year that will upgrade our building codes so 
we don't waste energy at all.
    Investments in infrastructure are extremely important. We 
have had $70 billion of transportation infrastructure in my 
State that are putting thousands of people to work. Seventy 
percent of that is in public transportation, which is low-
carbon systems.
    So building an infrastructure program, which I would hope 
Congress would do soon, and making sure a significant part of 
it goes to reduce our carbon footprint in transportation is 
extremely important.
    Assistance to consumers and small businesses for some of 
the capital needs to get these technologies in our hands is 
very, very useful.
    What we know is that most of these technologies if you do 
an investment of $10 you save $80 on your costs over the 
lifetime of the program. Don't hold me to those numbers. This 
is just a hypothetical for the moment.
    But the point is once you can get a little capital that 
allows the initial investment, you save money over the lifetime 
of your investment. All of these things as a suite of policies 
in some part are being placed in States around the country. The 
RGGI program has been very successful.
    Mr. Peters. Well, except I would say the particular thing 
you raised, which is not being done and probably can't be done 
by States, is the research part of it. I would say----
    Mr. Inslee. Yes. I think that is where maybe the Federal 
Government could be most important, having the financial 
resources that the Federal Government does, and having a 
unified R&D program nationally I think would be extremely 
important. When we do----
    Mr. Peters. Do you believe that it is--do you believe it is 
important for the Federal Government to be involved in making 
sure that the grid is interoperable State to State? Is that 
important?
    Mr. Inslee. Yes. It is extremely important, and we also 
want to have developed policies so that we can move renewable 
energy to its most productive usage and the Federal Government 
can be helpful in that interplay with different grid systems 
and I would love to talk to you about that.
    Mr. Peters. Love to. My time has expired. Thank you.
    Mr. Inslee. Thank you.
    Mr. Tonko. The gentleman yields back.
    The Chair now recognizes the gentlelady from the State of 
Washington, Representative Rodgers, for 5 minutes.
    Mrs. Rodgers. Thank you.
    Governor Inslee, welcome back to the House Energy and 
Commerce Committee. Out of curiosity, I just wanted to start 
out by asking you how you traveled here and what the carbon 
footprint was associated with that travel, and if you had laid 
out specific steps to offset that impact?
    Mr. Inslee. Yes. I intend to develop a clean energy system 
for the United States and the State of Washington and that will 
be the most tremendous offset of anything I have ever done in 
my entire life, because we will give my grandchildren an 
opportunity to have a life that is not severely degraded.
    And I traveled here the same way that everybody on this 
committee traveled here, which is on a jet airplane, and we are 
now developing biofuels, and we have developed in my State, 
something we should be proud of at Washington State University, 
and Alaska Airlines----
    Mrs. Rodgers. Yes.
    Mr. Inslee [continuing]. That have developed a biofuel that 
we could fly. We have flown a Boeing airplane across the 
Atlantic Ocean.
    Mrs. Rodgers. Yes. Yes. Thank you. Yes. Thank you.
    And I am excited about the biofuels, too, because it helps 
us address what is going on in our forests.
    Governor Inslee, as you know, in Washington State our 
largest source of clean renewable reliable affordable energy is 
hydropower--70 percent. The Columbia and Snake River systems 
provide important energy for us.
    They also provide irrigation to water our crops, making 
agriculture our number-one industry. Flood control, preventing 
catastrophic floods that we had in years past. Barging a 
product up and down the river--it is really a superhighway with 
significantly less carbon impact than trucks or trains.
    So I just had some yes or no questions I wanted to ask you. 
Do you support removal of the dams?
    Mr. Inslee. I support what we are doing in our State, which 
we have a task force to help respond to the Federal court order 
to evaluate the potential of that both from the positive and 
negative consequences, and there are both positive and negative 
consequences.
    And I support a way for Washington citizens to have their 
voices heard so that they can look at the cost to agriculture, 
of difficulty moving wheat, for instance. They can look for the 
costs of transportation.
    But they can also look at the potential positives from the 
salmon recovery standpoint and, as you know, we are on a 
Federal court order to determine all of these things.
    So I support Washington State's citizens being able to have 
a system which we have developed, as you know, on our task 
force to be able to address that issue and I will be working 
with citizens to evaluate all of those things.
    Mrs. Rodgers. OK. I have some other questions.
    Do you acknowledge that fish rates are maintaining even 
levels or even increasing as was outlined in your own State of 
the salmon report?
    Mr. Inslee. I am sorry. Did you say fish rates?
    Mrs. Rodgers. Yes. Fish return rates, up and down the 
river.
    Mr. Inslee. No, I am not confident that over a long term 
that we have stability on the Columbia system, and the reason I 
say that is that the system is dependent on things in the 
salmon life cycle that are not on the system itself.
    They depend, for instance, on food chains out in the 
Pacific Ocean and, unfortunately, we are seeing some 
degradation of those food chains because of climate change, 
because of increasing temperatures, both in the mainstream and 
in the ocean, and in different acidification of the ocean.
    Mrs. Rodgers. Yes or no?
    Mr. Inslee. So the answer is no.
    [Laughter.]
    Mrs. Rodgers. OK. Thanks. I have another one.
    Do you agree, if the dams are removed, Washington's 
agriculture industry will be negatively impacted?
    Mr. Inslee. It would be if we did not find some other 
alternative for transportation, and that is one of the things 
that this group is going to be evaluating is to determine 
whether there are feasible alternatives for transportation, and 
that is something that I think deserves a great scrutiny where 
everyone's voice is heard to look at those potential 
alternatives.
    And there may be potential alternatives in rail and 
trucking and the like, and I think that that is appropriately 
investigated in a real sense where we can really get down to 
it.
    And here is the reason I say that. I think it is important 
for people to have a forum to look at this on a scientifically 
credible way rather than just press releases or bumper 
stickers.
    We need people listening to one another, and I hope that 
that will happen.
    Mrs. Rodgers. OK. I think I will just go to my last 
question, which is about your recent travel increases and 
increased security detail--expenses to run for President.
    Do you plan to reimburse the taxpayers of Washington State 
for these expenses that you are incurring on nonofficial 
business and do you plan to offset the carbon emissions 
associated with that nonofficial travel?
    Mr. Inslee. So we plan to follow the law and plan to follow 
the current law, and that is what we will be doing.
    Mrs. Rodgers. Thank you. I yield back.
    Mr. Tonko. The gentlelady yields back.
    The Chair now recognizes the representative from the State 
of Delaware, Representative Lisa Blunt Rochester, for 5 
minutes.
    Ms. Blunt Rochester. Thank you, Mr. Chairman, and welcome 
back, Governor.
    I am pleased to be joining this important hearing on State 
and local action on climate change. While the Federal 
Government has chosen to take a back seat on climate change, my 
State of Delaware doesn't have that luxury.
    My State has the lowest mean elevation of any State in the 
Nation, and my constituents don't need any convincing that this 
climate crisis is real.
    It has touched every corner of Delaware with chronic 
flooding threatening homes in our cities, harsher and harsher 
storms eroding our beautiful beaches and threatening our 
natural heritage, and changing growing seasons threatening the 
way of life of our farmers.
    Governor, I was pleased to see that my State made it into 
your prepared testimony for our low-carbon transportation 
initiative. While our State has made great strides in combating 
climate change, as the challenges we face continue to grow in 
scope and severity, we know that the solutions must grow in 
equal measure.
    As Governor of a coastal State, can you talk to us about 
the unique challenges that climate change poses on coastal 
communities and what solutions that you found to be most 
impactful during your time as Governor?
    Mr. Inslee. Unfortunately, everyone with a coastline has 
this issue. It is a unifying issue, Republicans and Democrats. 
If you have got a coastline, you are a potential victim.
    And by the way, I want to mention who the first victims of 
climate change are. It is most frequently marginalized 
communities. It is the front-line communities, frequently 
communities of color.
    It is people living in poverty who are living next to the 
freeways, breathing those diesel smoke, living next to 
polluting industries.
    And part of our just transition we have to make during this 
transition to a cleaner energy source I think has to take that 
into account. We need a just transition to a clean energy 
system, not just a transition.
    So as far as this, this is a unifying thing and I took-as 
you know, I coauthored a little book here years ago about this, 
and I was looking at it the other night, and it had a picture 
of the first house in America that was maybe lost.
    It was in Shishmaref, Alaska--of a house that has fallen 
into the sea because the tundra was collapsing. That was a 
window into the future. But it is not too far off.
    I was in Miami Beach a few months ago with the mayor where 
they have had to build up their roads a foot and a half. Now 
when you go shopping in Miami Beach you walk down to the shops. 
It is kind of an unusual circumstance.
    The U.S. Navy is very concerned at Norfolk about damage and 
threats of sea level rise to a very important naval base. We 
had Andrew Fowler--excuse me, Admiral Fallon in Seattle talking 
about the national security risks of rising sea levels and we 
have actually even just--I just read an island in Hawaii--a 
small little uninhabited island has gone under. So it doesn't 
take rocket science to understand this and it is something that 
unifies us all.
    Ms. Blunt Rochester. You know, Delaware--we are small, as 
everyone knows, so we have an average annual budget of 
somewhere around $4 billion, and when we talk about these 
issues you even mentioned those environmental justice 
communities. These are like major infrastructure investments 
that will need to be made.
    Could you talk about any low-cost high-impact projects that 
you have seen during your tenure?
    Mr. Inslee. Well, there is a whole slew of them. But I will 
give you an example. When you talk about a just transition 
issue, we are closing our last remaining coal-fired plant in 
Centralia, Washington, and that happened because of a community 
consensus, and we embedded into that program about $65 million 
for what you might call a just transition to help workers with 
training costs, to help small businesses to develop in their 
local communities, to help develop different utility systems to 
help people through that transition.
    And that was embedded in the program and it was done 
through a consensus, and it was important because it recognized 
that there are transition costs and difficulties when you do go 
through a transition.
    In our bills this year in our State legislature we have 
provisions in our 100 percent clean electrical grid bill that 
will assure that utilities cushion any impacts with low-income 
people through their utility bills in a variety of different 
measures.
    So these things are working. I know they are working in 
other States. And the interesting thing, too--I would just get 
one other point--the 23 States that are now part of the U.S. 
climate alliance, which has been very successful because no one 
else has followed Donald Trump off the cliff on this--they are 
the ones with the best economic performance. So these things 
lead to economic performance. They don't degrade it.
    Ms. Blunt Rochester. Governor, I have three seconds left, 
and I just want to thank you so much for raising the visibility 
of this nationally because it is an issue of our time.
    Thank you, and I yield back.
    Mr. Inslee. Thank you.
    Mr. Tonko. Gentlelady yields back.
    The Chair now recognizes the gentleman from the State of 
West Virginia, Representative McKinley, for 5 minutes.
    Mr. McKinley. Thank you, Mr. Chairman, and welcome back, 
Governor.
    I remember when you were here on the committee and we had 
some exchanges.
    Let me just--curious, I read your testimony and on about 
the third or fourth sentence from the end of it, or paragraph, 
you made an interesting remark.
    You said States cannot solve this problem, a magnitude of 
this, on their own, and I can't agree with you more. We are 
going to need that, not only all the States working together, 
but we got to have a global approach towards this problem, 
because States in and of itself can't.
    And I would submit to you that I think States can cause 
part of the problem as well. Your own--you had a report put 
out--it was 122-page greenhouse gas emissions technical 
report--that said--that you all funded in the State of 
Washington--that exporting U.S. coal would have the benefit of 
reducing total global greenhouse gases.
    Let us look at that again. Would have the benefit of 
reducing greenhouse gas emissions by exporting. Now, having 
said that, your administration--you have been fighting 
exporting coal.
    I find a disconnect there. Your own report says that would 
help on greenhouse gases. But yet, with all due respect, you 
put up roadblocks to prevent exporting of coal through 
Washington.
    Can you explain how you think that does not negatively 
impact the environment by preventing American coal from being 
burned overseas rather than low-quality Indonesia or Australian 
or other coal? Can you give me something, briefly, on that?
    Mr. Inslee. I think you are referring to a failure of an 
applicant for a particular project to obtain the legally 
required permits by the Washington State Department of Ecology.
    Mr. McKinley. If that is the case, did you--can you work 
with them rather than deny it? Can you work with them so that 
they can?
    Would you support exporting coal in compliance with your 
report that said that would reduce greenhouse gases around the 
world? Would you support that?
    Mr. Inslee. Yes. I want to make sure that in answering your 
question, I am answering it not in respect to that particular 
applicant. So I am going to give you an answer to your 
question.
    But it does not have anything to do with that previous cite 
that I just referred to, because that was a decision by the 
State Department of Ecology.
    But, in general, here is my thinking about coal and we have 
to realize, I think, a fundamental scientific fact, and it is 
difficult to recognize----
    Mr. McKinley. With all due respect----
    Mr. Inslee. You asked me a question----
    Mr. McKinley. I heard your testimony when you were here in 
committee. I know where your position is anticoal and I respect 
that, where you are coming from.
    Mr. Inslee. Not enough to let me answer the question, 
apparently.
    Mr. McKinley. No. I don't need for you to go on a diatribe 
about coal. My question is, if it's a global effort that we 
need to do, and America is already reducing its CO<INF>2</INF> 
emissions, which are important for us to do it, but the rest of 
the world is not engaging. I want for the record, everyone, to 
understand that we may very well be able to decarbonize perhaps 
in America and upset our economy.
    But if the rest of the world doesn't do something about its 
emissions, particularly in China and India, we are still going 
to have droughts, wildfires, severe weather alerts. We are 
still going to have coastal increase problems with water 
increasing--the oceans increasing with it.
    My concern is, why aren't we working on a global stand 
rather than individually trying to put up roadblocks, as you 
are in the State of Washington?
    The Paris Accord did not have the teeth, and you and I both 
know that--it did not have the teeth. The nations were not 
complying with the Paris Accord.
    Therefore, that is one of the reasons I read the--led the 
letter to encourage the President to withdraw until we can put 
some teeth into that Paris Accord that makes people comply with 
that standard and lower the standard.
    But what you have done is actually put impediments in 
Washington to prevent that from happening.
    Mr. Inslee. Sir, if you will allow me to answer, I will try 
to answer those three questions.
    Number one, we should work with other countries, just like 
our States are working with one another. Our States are a 
template for success. We now have 23 States that are committed 
to moving forward, and all of those States in their own 
individual way are making progress.
    We have ought to have the same degree of cooperative spirit 
with other nations. But that has not happened because the 
President of the United States decided to try to withdraw us 
from the Paris Agreement.
    As you know, he can't legally until the next year, and it 
is hardly helpful when the vast, vast, vast, majority of 
humanity is recognizing this existential threat to their life 
on this planet and then have the leader of the free world tear 
it up and walk away in a petulant juvenile fit.
    That is not helpful in developing international 
cooperation. That is number one. Let me finish, because you 
asked me three questions.
    Number two, coal is just a scientific fact that is very 
difficult that we have to realize, that if we burn all of the 
coal that we have we will not have something, anything that 
looks like the way we live today.
    Now, that is just a scientific fact. So to some degree, we 
have to manage a transition to a cleaner energy economy over 
the next several decades and I think we all ought to work 
together to figure out how to do that to manage that transition 
to help the communities that are part of that transition.
    And I may reference to the Centralia plant as a way that we 
have done that. And three, we ought to be all working together 
to develop alternatives to coal, which we are doing, and these 
23 States are showing success.
    So I approach this with optimism and confidence because we 
are the most can do people in the history of the planet, and I 
believe we can do--we can get that job done.
    Mr. McKinley. Thank you. I guess I have run out of time.
    I guess what I would conclude, you said you would not put a 
roadblock up to exporting coal. Washington filled the 
application outright--is that what I am hearing you saying?
    Mr. Inslee. I am saying that we follow the law in the State 
of Washington and the law in the State of Washington as 
developed through the permitting process that one of these 
particular plants, according to the Washington State Department 
of Ecology did not satisfy the laws of the State of Washington. 
That is what I am saying.
    Mr. Tonko. The gentleman yields back.
    The Chair now recognizes Mr. Pallone, full committee chair, 
for 5 minutes to ask questions.
    Mr. Pallone. Thank you, Chairman Tonko, and again, welcome 
back, Governor Inslee.
    At our last subcommittee hearing, we had a productive 
discussion about subnational actors like city, States, and 
companies stepping up to the plate after President Trump rashly 
announced the U.S. would abandon the Paris Agreement.
    And you have been very active in that regard not only in 
your role as Governor but also as cofounder of the U.S. Climate 
Alliance, which has been very successful over the last few 
years in expanding bipartisan membership and forging a path to 
effectively address climate change.
    But in your testimony you say, and I quote, ``The truth 
remains that without leadership from our Federal Government the 
country won't be able to do enough fast enough,'' unquote.
    So I just wanted you to expand on that point. Why is the 
Federal leadership still needed and are there tools available 
to the Federal Government that States don't have at their 
disposal?
    Mr. Inslee. Well, the first reason is that today we have 23 
States and, by the way, those include three Governors who have 
joined this--three Republican Governors who are part of that 
alliance.
    But and that represents the majority of the American 
people, I believe, and about 60 percent of the U.S. economy, 
and I believe if it was a separate nation it would be the third 
largest economy in the world--these 23 States.
    So this is what you might call a big deal. But it is not 
all of the United States and it is important that we all work 
together and it is important that industries have consistency 
as much as we can for policies.
    We would all like to have the most consistent policies that 
we can for investment policy decisions. So having consistency 
would be useful in addition to having the entire United States 
economy associated with that.
    In addition, the Federal Government just has the resources 
that the States do not have, particularly in the research and 
development, which is extremely important. We have seen what 
R&D can do when we defeated fascism federally.
    We see what R&D can do when we went to the moon nationally 
and we ought to be able to achieve the same levels of Federal 
R&D to really make this happen.
    Now, it also is an issue of, for instance, transportation 
infrastructure. The Federal Government can be very--a driving 
force in that regard that can really, really help in 
infrastructure.
    The Federal Government can help in the procurement policy 
so that when we buy products we can help drive a clean green 
procurement system that can be very useful. Secretary Mabus of 
the Navy started that and it really helped when he had the 
Green Fleets program to drive the development of biofuels and 
the like.
    So there are so many multiple tools that the Federal 
Government has that could assist the States in moving forward. 
I mean, we are making big progress when you see what is 
happening.
    But we need a Federal partner and I hope people will work 
together to get that done.
    Mr. Pallone. Well, I appreciate that, and let me get to the 
last point you made. While not a substitute for Federal 
leadership, I do believe that renewed congressional action on 
climate change is a step in the right direction and I am 
interested in moving legislation to support State and local 
government efforts to respond and prepare for the effects of 
climate change.
    The mayors on the second panel are going to suggest, among 
other things, that Congress should reauthorized the Energy 
Efficiency Community Block Grant.
    So what policies or initiatives should Congress consider 
enacting to support and further expand what your State and 
other States and local climate--on the front of climate action 
and, you know, what policies or initiatives should Congress 
prioritize in that regard to help the States and the towns?
    Mr. Inslee. The first priority would be to remove the 
shackles that prevent us from moving forward in States, and 
there are some that prevent us, for instance, in transportation 
fuels.
    Federal policies have prevented us from moving forward with 
some of our CAFE standards and the like. So the first order of 
business was take off the weights that we carry of the Federal 
restrictions, particularly the ones that have come from this 
administration.
    A second, and this is--look, I just think the best thing 
the Federal Government can do is to adopt federally what our 
States are doing from a State perspective, and it doesn't 
really require to mandate or even assist States. It is just to 
get the Federal Government in the same business with the same 
templates of success and I believe the States are a template of 
success.
    Look, you know, I am criticized by parties, criticized 
frequently of saying that your policies will somehow be 
destructive of economic growth.
    I hear the President saying we won't have planes or trains 
or cars, and that is just not the case when we are driving 
electric cars. The Governor has a little electric car that 
works.
    We have been accused of doing things that will retard 
economic progress. But the facts just don't bear that out. 
Look, my State is the most rapidly growing economy in the 
country and when you look at the 23 States that are doing 
things on clean energy, by and large they are the ones that 
have the greatest rate of economic growth.
    So I just suggest the most important thing to do is for the 
Federal Government to be as confident and optimistic as the 
States are right now in our capability to build a clean energy 
economy.
    If we infect the U.S. Congress with the confidence we have 
and Massachusetts, with a Republican Governor, and Maryland 
with a Republican Governor and Vermont with a Republican 
Governor, good things are going to happen, and that is why I am 
here today, and I wish some of my colleagues were here. I 
understand others were invited, but I am the one who had the 
most friends here, so I came.
    Mr. Pallone. Well, thank you, Governor. Thank you for what 
your State is doing and for the U.S. Climate Action. We 
appreciate it. Thank you.
    Mr. Inslee. Thank you.
    Mr. Tonko. The gentleman yields back.
    The Chair now recognizes the gentleman from the State of 
Georgia, Representative Carter, for 5 minutes.
    Mr. Carter. Thank you, Mr. Chairman.
    Governor, thank you for being here. This is an extremely 
important subject and we appreciate your participation.
    Climate change is real. Climate has been changing since day 
one. Protecting our environment is real. We all recognize that.
    I noticed in your seven pages of testimony that you 
mentioned a number of renewable energies such as wind, solar, 
and hydro, but you didn't mention nuclear.
    I am just wondering, it would appear to me that we are 
going to have to use a number of different resources in order 
to--in order to get to the common goal that we want to get to 
but--and certainly carbon capture and nuclear power are going 
to be a part of that.
    I am just wondering why did you omit nuclear power in your 
testimony?
    Mr. Inslee. I didn't know because I didn't write it. So I 
will have to ask my staff the answer to that question.
    Mr. Carter. OK. Fair enough.
    Mr. Inslee. But I have been very forthright in saying that 
we need to have under consideration any low-carbon or zero-
carbon technology, and I think we have to be nonecumenical 
about this and I have been in my policies.
    I will give you an example. In my State--Representative 
Rodgers brought up hydroelectric. We now are classifying 
hydroelectric in our clean energy 100 percent grid, which has 
been a concern of some folks.
    I have been supportive of research and development in the 
nuclear industry. There are some modular nuclear systems that 
might be productive if--now, this is a big if--we got to make 
sure we understand this. We need to make sure that they are 
cost effective and they are not to date.
    As you know, the cost is what has been the biggest problem 
in the nuclear industry, that they are safer, that they have a 
waste disposal problem, and they have public acceptance.
    So my view is it makes sense to find out if any of those 
things can be solved. They would have to be solved before 
nuclear would become a meaningful component of an energy 
future, going forward.
    But I think it makes sense to look to find out if they can 
be. I have had a couple questions from this side of the panel 
about nuclear. The one comment I would make is I think it is 
really important for all of us to be nonselective amongst 
multiple low- and zero-carbon solutions here.
    I think that it important because some of them are going to 
pan out and some of them aren't, and I am for having a broadest 
view of all possible measures.
    Mr. Carter. OK. To follow up on that comment, let me ask 
you this then. Do you think it is the States' role to mandate 
to power companies how they are going to lower their emissions, 
or would you agree that it would really be advantageous to 
allow the power companies to come up with their own plans 
because what may work in Washington State may not necessarily 
work in the State of Georgia?
    I can tell you that in Georgia, Southern Company has done a 
good job of decreasing their emissions and has made a lot of 
progress and yet the State hasn't mandated to them what types 
of decreases they should make.
    Mr. Inslee. You know, it is--that is an interesting 
question and I will give you two contradictory answers. One of 
this is yes, we are always looking for the most cost-effective 
clean energy source to get the job done from a cost-
effectiveness standpoint.
    But there is an argument for policies that will help 
specific industries move forward, and I will tell you why. For 
instance, in a renewable portfolio standard if you just have a 
standard for multiple technologies the only one that gets 
developed is the next most cost-effective one even though you 
know you have got plans B, C, and D that you are going to have 
to develop to get the job done.
    So I think there are some circumstances where policies that 
are specific to particular technologies make sense because if 
you know you are going to have to have four different tools you 
need to find a way----
    Mr. Carter. OK.
    Mr. Inslee [continuing]. To make sure all those tools are 
developed.
    Mr. Carter. Right. We may have some minor differences on 
that. But nevertheless, I do want to get to this before my time 
runs out and that is, obviously, Washington State is a big 
forestry State.
    Georgia is the number-one forestry State in the nation, by 
the way, and I noticed, again, you didn't mention and I am just 
wondering if you might speak to that because biomass is 
certainly something that is American made, if you will. It is 
something that we can actually do here.
    Mr. Inslee. Yes. I think that sequestration of carbon in 
biological systems is something we should explore and we ought 
to see if there is a way even to create a revenue stream for 
people in the timber industry and the agriculture industry to 
sequester carbon in topsoil, and the reason that that makes 
sense is not only can it help sequestration of carbon in 
topsoil but it also, when you do those things, you prevent 
erosion in a lot of the low and no-till technologies. These 
things make sense.
    The same thing to be said in the timber industry. The 
difficulty we have had is that some of the folks who are 
interested in these industries have been the most resistant to 
actually doing things that would allow us to create that kind 
of program.
    So it will be helpful when folks--and we have some leaders 
in our timber industry who are interested in developing 
policies to actually allow that to happen. It will help when we 
have more folks in the ag industries want to develop policies 
to create a revenue stream possibly for sequestration of carbon 
in topsoil.
    I really look forward to that day and I look forward to the 
day when this is a more bipartisan effort.
    Mr. Carter. Well, and I recognize my time has expired. Let 
me say that I think this is going to be tremendous opportunity 
for us. Working together and as innovative as we are in 
America, I look forward to this because I think there is just 
so much innovation out there that can be accomplished and I 
look forward to working toward it.
    Mr. Inslee. Yes, let me--if the Chair will allow me to just 
comment on this. I think this is an important point. I want 
to--I agree with you with this caveat, and I will just tell you 
about a conversation I had with the second President Bush.
    It was the first time I talked to him, and we were talking 
about the potential of sequestering carbon from coal plants, 
and he said he was very excited about clean coal technology, of 
maybe being able to sequester and put coal in the ground.
    But what I pointed out to him is that that would involve 
additional costs, and no one is going to do it unless there is 
some system to create a reason to do it and an ambition to do 
it and an incentive to do it.
    And so the only reason to actually do it, even if the 
technology worked, is if you had some limitation on pollution 
or some other market mechanism to drive incentives.
    And it is this same for sequestration in topsoil or in the 
timber. So we have to have some mechanism to reduce--to create 
an incentive not to put carbon in the atmosphere in the first 
place for any of these programs to work, and that is where we 
need some more bipartisan help in this regard.
    Mr. Tonko. The gentleman yields back.
    The Chair now recognizes the gentleman from the State of 
Florida, Representative Soto, for 5 minutes.
    Mr. Soto. Thank you, Mr. Chairman, and Governor Inslee, 
welcome back. Obviously, you are getting varied welcomes here, 
but I hope that you are enjoying your time here.
    As you may know, eight of the last 10 years have been the 
hottest years on record and we have had 1.4 percent increase in 
temperature Fahrenheit wise since the 1880s. We are scheduled, 
if nothing is done, for that to go even higher.
    Three inches in sea rise since 1993, and the idea of global 
warming, I think, can be misleading in that it is not just that 
the world is getting warmer but we can see more extreme 
weather, whether it is hotter summers or colder winters.
    In my own home State of Florida, we have to deal with sea 
barriers and new water treatment plants and sewer systems and 
we are very vulnerable to that. But Washington also faces kind 
of a double threat. Isn't that correct?
    Like both colder winters and coastal threats from rising 
seas. I think Mount Rainier even got snowed in for a while this 
year, if I remember correctly, because the jet stream is no 
longer maintaining a lot of that Arctic air just in the north.
    So what are some of the effects you are seeing as far as 
increasing cold temperatures and then what your State is doing 
to combat these coastal threats?
    Mr. Inslee. Well, I think what you point out is something--
this originally was called global warming and it has turned out 
to be global wearing because it is disrupting all kinds of 
patterns, and it is so strange because you get it on both ends. 
You get drought.
    I have just--may declare a drought emergency--and 
increasing droughts in one season whereas you have increasing 
precipitation flooding events in a different season. So we have 
had fires in the summer.
    Last year one day in Seattle was the worst air quality in 
the world because of the particulates from the fires that were 
raging and our fires in the Cascade Mountains and in British 
Columbia were on fire and we had, you know, weeks of smoke.
    We had to close some of our swimming pools in the State of 
Washington because of air quality hazards to our kids.
    You have infectious disease problems where insects are 
moving forward. We are now getting tick infestations, which are 
spreading diseases, moving forward fairly rapidly.
    Our sea level rise is now affecting some of our coastal 
communities. We are actually having to move some of the 
infrastructure in that regard.
    And here is one that I don't think gets enough discussion 
here and that is the acidification of the water in my State. So 
the pH level is dropping rapidly. It is about 30 percent more 
acidic than it was before we started to burn fossil fuels.
    That has prevented us from growing baby oysters because 
they can't precipitate calcium carbonate out of the water. We 
now have to grow the baby oysters in tanks where you put, like, 
soda to increase the pH.
    So this is having so many untoward effects. It is not from 
one direction. It is from many directions and as from Governor, 
look, this is a firsthand deal with me. You know, when you go 
into Wenatchee, Washington and you see a couple crying in front 
of their house that was torched and a man holding his wife and, 
you know, and is, like, collapsing, climate change is not an 
abstraction to Governors.
    We see it when we go to these emergencies. And so you are 
correct, there are a lot of reasons to do this work. But I 
always end on a positive note, which is the angst I feel about 
these multiple emergencies I am having to declare I have the 
opposite spectrum when I see my friends' kids going to work in 
clean energy.
    Mr. Soto. And I wanted to talk a little bit about that. You 
all have been a tech leader in so many ways in Washington. But 
$6 billion in renewable investment, a $125 million clean energy 
fund you mentioned--how has renewable energy--the new renewable 
energy economy changed your GDP and can you talk a little bit 
about that technology boom that you all have?
    Mr. Inslee. You know, I will try to get you a number. I 
actually don't have a number on GDP. But all I can tell you is 
it is significant because every county I go to has some sort of 
sense because we have been very broad minded in our policies.
    The gentleman from Georgia asked the question about 
sequestration. So biomass by law is carbon neutral in our 
statute. We have actually declared biomass to be carbon neutral 
so that we can get an advantage to help the ag industry and the 
timber industry using biomass.
    And right now, we are developing a cross-laminated timber 
industry that can be of assistance to the timber industry using 
some of the that waste product coming out of the timber 
potentially as a fuel source as well.
    So the fact that we have been eclectic and nonjudgmental, 
looking at all spectrum of jobs has been very effective for us 
and I hope the Federal policy will follow.
    Mr. Tonko. The gentleman yields back.
    The Chair now recognizes the gentleman from South Carolina, 
Representative Duncan, for 5 minutes.
    Mr. Duncan. Thank you, Mr. Chairman. I yield to the 
gentleman from Illinois as much time as he may need.
    Mr. Shimkus. I thank my colleague and, Governor, again, 
welcome and I do relish our friendship and the work we have 
done together and the battles we have had.
    I just wanted to make sure I had time to--because of other 
aspirations that you have just put some facts on the table. 
President Bush got more votes in Nevada in 2004 than in 2000 
after he approved the site selection.
    President Obama got fewer votes in Nevada in 2012 than in 
2008 after he helped delay the licensing project. Nine of the 
16 counties--I go to Nevada quite a bit--nine of the 16 
counties have passed resolutions in support of at least 
adjudicating the scientific study.
    As you know, the Nuclear Regulatory Commission was tasked 
under law to evaluate the site and after litigation they were 
finally allowed to release the report, which said if used as 
designed Yucca Mountain would be safe for a million years.
    So where we are at in the process now is just providing the 
money to allow the State of Nevada to contest that science and 
that is what has been blocked through the last 2 years of the 
Obama administration and then we faltered because of politics. 
You know, last cycle it was Dean Heller, and now it is--we 
don't know.
    The point being is that this appropriation debate is just 
to debate the science, which, you know, this whole thing and 
you stand firm on, you know, let us look at the science.
    So I would just hope if things go well for you in the 
future that we would have the same standard of evaluating and 
using science to determine the safety, so we can at least 
address this defense issue and the spent fuel issue, and you 
know it is something I have been working on for--many times.
    Let me go to--and actually I just wanted to throw that out 
there--let me mention some of the issues about--and we are 
going to have a panel of mayors in the next panel and some are 
going to be all on board and we have got two that will probably 
be sceptical of your testimony.
    But let me get--I got a letter from Mayor William Wescott 
of the city of Rock Falls, Illinois. The city owns and operates 
its own electric utility and it participates in the Illinois 
Municipal Electric Agency, a collection of nonprofit public 
power municipalities within the State.
    Mayor Wescott outlines the clean energy investments the 
city has made but he also talks about the critical investments 
in baseload in the state-of-the-art coal-fired generation 
facilities, a 1.6 gigawatt Prairie State Energy campus, and 
this is where he--this is his warning to policy makers.
    He warns that if Federal and State policies force premature 
closure of the coal-fired units his city would still have the 
purchase energy, but then he would also be burdened to make 
payments on the closed facility.
    So it is like a double whammy for some--for a local 
municipality and a government agency to say, we are going to 
address our electricity generation needs by the elected people 
that they are designed to represent.
    Should policies be designed to ensure cities and ratepayers 
are not burdened with this stranded cost and what would be a 
solution?
    Mr. Inslee. Well, it is a broad question, but I think the 
solutions to these matters are, again, doing the kind of thing 
that we did in Centralia, which is to come up with a consensus-
based approach to have a transition period that everyone can 
live with, and I think that process could be a template for 
other communities to be successful and we have been successful 
in that regard.
    The policies that we have adopted in Washington State I 
really don't think there is an argument it has had any 
meaningful disruption to any communities or any utility or any 
ratepayer.
    We passed a renewable portfolio standard provision maybe a 
decade-plus ago. We had zero wind turbines or any significant 
wind turbines. We now have six----
    Mr. Shimkus. But you have all that hydroelectric that was 
credited as renewable, correct?
    Mr. Inslee. Well, actually it wasn't. So the hydro at that 
time was not, quote, credited as a renewable because----
    Mr. Shimkus. Is it now?
    Mr. Inslee. It's going to be under the new 100 percent 
system. My point is that during that debate--I was active in 
it--it was an initiative to the people and there was a lot of 
concern expressed by utilities and some industrial customers 
that this is just going to drive rates through the roof and 
this was technologically not possible.
    We now have 3,000 megawatts. They are growing rapidly. We 
have $6 billion of investment. The proof has been that we are 
much more adept at creating substitutes for some of the fossil 
fuel industry than we have thought, and I will mention one 
other thing, too, and I think this is important.
    When we listen to people about these issues, I think it is 
really important to listen to some of the new players in clean 
energy rather than the incumbent utilities that are huge and 
have representatives here, and those new players are pretty 
inspiring.
    A&D Electrical Supply in Greenville in Illinios, Cooper 
Eaton in Troy, who are installing solar, Lake Land College in 
Mattoon, Paradise Energy Solutions in Sullivan--these are small 
companies to start with. They don't have a lot of 
representatives here. But I think their voice is worth 
listening to because----
    Mr. Shimkus. They have one.
    Mr. Inslee. Huh?
    Mr. Shimkus. They have one representative here.
    Mr. Inslee. All right.
    Mr. Shimkus. That is me.
    [Laughter.]
    Mr. Inslee. Good. All right. I will agree to that.
    Mr. Tonko. The gentleman yields back.
    The Chair now recognizes the gentleman from California, 
Representative McNerney, for 5 minutes.
    Mr. McNerney. I thank the Chair.
    Welcome back, Governor. I hope you have noticed that there 
has been a change in the committee since you left and that 
there is a general consensus that CO<INF>2</INF> emissions are 
a problem.
    Like you, Governor, I am bullish about the economic 
opportunity that comes with the transition to clean energy. I 
worked in the wind industry for 20-plus years. I saw the job 
creation but I also saw American-developed technology and jobs 
go overseas because of inconsistent Federal policies.
    Could you comment on the importance of consistent and 
predictable Federal policies?
    Mr. Inslee. Yes. I think there are some of importance. One 
of the things that perhaps would be most useful is allow 
integration of our grid system, also responding to our 
cybersecurity concerns about the grid, which we know you are--
we are all attentive to.
    But finding ways to make the grid more effective to allow 
renewable energy to be--to be wield, if you will, and move more 
efficiently and effectively. That could be of assistance.
    A second--the thing I mentioned before, to remove the 
restrictions on States that are now preventing us from moving 
forward on transportation fuels improvements, we are ready to--
we are in the gate, ready to go, if the Federal Government will 
just remove those requirements.
    Mr. McNerney. Well, what I am talking about is consistency. 
I mean, American-developed technology went overseas because 
American subsidies ended and it looked more appealing to 
Germans and Spanish and so that is where the technology went.
    Mr. Inslee. It is a heartbreak to see some technologies 
that--in the lab were created in our labs be deployed in China 
and Germany because they have had policies to make them 
economically competitive in their grid and transportation 
systems.
    And I just--I just don't like to see our technology 
developed in our universities that then other people get jobs 
for and that has happened big time because we have withdrawn 
support significantly and is happening because this 
administration has really been an ostrich with its head in the 
sand and its tail feathers in the air on this issue.
    Because they are withdrawing policies today that will help 
development of clean energy and utilities, because they are 
withdrawing policies today in transportation, some of those 
jobs are going overseas.
    We want our kids having those jobs and I hope that we 
resolve this issue.
    Mr. McNerney. Thanks. Unfortunately, I am not bullish about 
our ability to present the growing impacts of climate change. I 
personally believe we are going to blow past the two-degree 
increase in global temperatures no matter what we do in this 
country to reduce emissions.
    What should we do to enhance cooperation with countries 
overseas so that it is not just us reducing emissions?
    Mr. Inslee. Well, the first thing is get it back in the 
Paris Agreement, which is the first commitment, and I think 
that is important.
    Look, we are the leader of the world. We are an 
indispensable nation because of the power of our economy and we 
need them to keep--you know, it is kind of interesting to me.
    I hear a lot of people who are critical of saying we 
shouldn't do something until the last person on Earth does 
something, and then they turn around and say we shouldn't be in 
the Paris Agreement.
    It is not very inspiring to the rest of the world to 
encourage them to do things if we tear up an international 
agreement that we are a part of. If you want folks to do work 
in the rest of the world, the last thing we should be doing is 
abandoning an agreement that we have had with the rest of the 
world.
    You can't say you want the rest of the world to act and 
then turn around and say you are not part of the Paris 
Agreement. That is not going to inspire representatives in 
India or China or Germany who are sitting in the seats that you 
guys are sitting in to take action.
    We want to inspire those people to take action. In some 
sense, we want to demand those people to take action. So yes, 
we should become part of the international community. The 
country that did the Marshall Plan and went to the moon I think 
ought to take that position.
    Mr. McNerney. Governor, clearly, we need to reduce 
CO<INF>2</INF> emissions but I would like to ask your opinion 
on climate intervention. Specifically, do you support research 
on climate intervention including sunlight reflection aerosols?
    Mr. Inslee. Well, I am one that believes that the use of 
aerosols, the use of solar screens, if it is in the lab it 
shouldn't go beyond the lab until we have about a hundred years 
more understanding of how systems work.
    I am very, very anxious to think that we could intrude in 
these basic systems without understanding what we are doing.
    The consequences are things we have no idea about and I 
would suggest that while our house is on fire it is more 
important to grab buckets right now and put the water out than 
design something that, you know, would prevent the--a match 
from being allowed in town.
    So I really believe that we got to focus on preventing 
carbon emissions in the first place. That is the battle we are 
in right now and I encourage us to stay in it.
    Mr. McNerney. So what do you think the biggest single 
threat from climate change is?
    Mr. Inslee. Well, he is--the man whose name I will not 
utter here.
    Mr. McNerney. No, a physical threat.
    Mr. Inslee. He is a physical threat, actually. But----
    [Laughter.]
    Mr. McNerney. Do you think it is a disease or ocean 
acidification or West Antarctic ice sheet? What do you think is 
the worst--the biggest threat?
    Mr. Inslee. I could not choose the disaster scenarios 
amongst them because it is difficult for me to know what 
tragedy has been worst since I have been Governor. The forest 
fires are the ones where I have, you know, comforted families 
that have lost people in forest fires. But we have had other 
measures as well that may be just as bad.
    I remember talking to a 14-year-old young woman and lived 
next to a freeway in Seattle. She told me that she was 11 years 
old before she knew someone that didn't have asthma. She 
thought everybody had asthma because they are all breathing 
that diesel smoke and toxic fumes.
    And it was interesting. She went out and did her own sort 
of research and she found every quarter mile you live closer to 
a freeway your asthma rates go up significantly.
    And when I tested that with the epidemiologists at the 
University of Washington, her research was exactly the same as 
theirs. The thought that our kids are having trouble breathing 
might be the biggest one, and this is something that young 
people understand and it is really close to their hearts.
    I was at Dartmouth a couple months ago and talked to a 
young woman who said that she had been involved in two 
conversations that week with young women who were asking 
themselves whether it was right to bring a child into the world 
that could potentially be so degraded.
    Now, the fact that that has reached that level of personal 
decision making would suggest that we need the Congress to 
move.
    Mr. McNerney. Thank you.
    Mr. Tonko. The gentleman yields back.
    The Chair recognizes the gentleman from Missouri, 
Representative Long, for 5 minutes.
    Mr. Long. Thank you, Mr. Chairman. And talking about 
raising children in that type of environment I was in China a 
few years ago, and one of the young ladies that works at the 
American embassy in Beijing there--you with me?
    Mr. Inslee. Yes, I am sorry.
    Mr. Long. What was I asking you?
    [Laughter.]
    Mr. Inslee. Well, I thought you were in Beijing and you 
were talking to a person there.
    Mr. Long. A young lady.
    Mr. Inslee. Yes.
    Mr. Long. Been there 4 years and had two children since she 
had been working at our American embassy in Beijing. And I 
asked her--I said, ``Why would you have children in this 
environment?''
    I am sure you have traveled to Beijing many times. You 
cannot see across the street and everyone, I think, has come 
around to the idea that climate change is real and we do need 
to do what we can to protect the environment and protect two 
young kids like hers there in Beijing, not to mention all the 
people in China that are raising their children with that kind 
of an environment, where you literally can't see across the 
street.
    Did you say you drive a electric car?
    Mr. Inslee. Yes, mostly the State Patrol drives. But on 
occasion, I sneak in a little trip. It is a GM Bolt.
    Mr. Long. But you say ride in a GM Colt?
    Mr. Inslee. Bolt. B as in boy, yes.
    Mr. Long. Bolt. Is that 100 percent electric?
    Mr. Inslee. Yes. Yes.
    Mr. Long. OK. What is your range on that?
    Mr. Inslee. It is 238 miles, and I know that because we 
just upgraded. My last one was 160, and so now it is 238.
    Mr. Long. All right. Well, I use 300 miles, so my math is 
going to be off. But if my Governor, Mike Parson, in Jefferson 
City, Missouri, wanted to come see you in Olympia, it would 
take--at 300 miles it would take seven--I am assuming you have 
to charge it overnight, but it would take about 7 days to come 
see you in Olympia, and if I drove a gasoline engine it would 
take 1 day and 5 hours.
    So, while we have to address this, still we have to keep 
practical things in mind, in my opinion, and driving a vehicle 
from Jefferson City, Missouri, to Olympia, Washington, over a 
period of 7 days, I understand why you flew here today and, as 
you said, most of us flew here.
    You testified that you would support the will of the people 
with regard to the removal of hydroelectric dams. Is that 
correct?
    Mr. Inslee. What I said is we are developing that. What we 
are doing is we are under a Federal court order to review the 
usage of the Snake River dams and as part of that process we 
have just started a task force at my request, which is going to 
have citizens from across the State evaluate the pros and cons 
of potential removal and breaching of the dams. And that is a 
process that is just in its infancy, and this is in response to 
a Federal court order to evaluate that.
    We have made some changes in the operations of the dams 
already to try to increase fish flows so more water is coming 
down so that the salmon have more survival. As you know, we 
have some endangered species in that river system, and we are 
trying to recover our orcas as well that are very much 
endangered.
    Mr. Long. But you would support the will of the people in 
regard to that if they want to remove hydroelectric dams, 
correct?
    Mr. Inslee. I would----
    Mr. Long. I thought that is what your--I thought you were--
--
    Mr. Inslee. I am sorry?
    Mr. Long. I thought that is what you testified to earlier 
here.
    Mr. Inslee. Well, we are not--there is no initiative where 
the will of the people is going to have any up-or-down vote. 
The will of the people will be expressed through our democratic 
process legislatively.
    Mr. Long. If they did have an up or down vote on an issue, 
would you support the will of the people?
    Mr. Inslee. Well, if it is the law of the State of 
Washington of course I would respect the law of the State of 
Washington. But there is another entity involved, and that is 
the Federal courts, and the Federal courts now have ruled that 
we have an obligation to investigate the potential removal of 
the dams.
    That is a judicial decision, and we are bound by that 
judicial decision. We are also under a judicial decision to 
improve our culverts. We have culverts that block fish passage.
    Mr. Long. OK. Let me--I am running short on time. Let me 
get in another question here about of concern to me in my homes 
State of Missouri, and that is keeping transportation costs low 
is crucial for both my constituents and industries like 
trucking and agriculture, which we have a lot of in the State 
of Missouri, and they are very prevalent in my district.
    Washington State has the highest gas prices behind only 
California and Hawaii. Missouri, on the other hand, is always 
in the top ten, usually lower than that. On gas prices for 
premium gas and diesel it is the cheapest in the country. How 
do the policies that you advocate for keep transportation costs 
low for rural districts like my own?
    Mr. Inslee. Well, when you drive an electric car your 
transportation fuel is about 80 percent cheaper than when you 
are driving a gasoline-powered car. It is a sweet deal.
    The price of gasoline when I drive my car is zero because I 
don't use any gasoline, and that is a pretty sweet deal and it 
is a sweet ride. And you were--you were----
    Mr. Long. Seven days to get to Olympia is a stretch, too. 
So I thank the--I yield back.
    Mr. Inslee. We'll welcome you to land at Sea-Tac Airport.
    Mr. Tonko. The gentleman yields back.
    The Chair now recognizes the Representative of the State of 
New York--the gentlewoman from the State of New York, 
Representative Clarke, for 5 minutes.
    Ms. Clarke. Thank you, Mr. Chairman. I thank our ranking 
member. It is so good to see you back here, Governor, and I am 
really excited about your passion around this issue.
    I want to thank Governor Inslee for testifying before us 
today. Your leadership on climate change has inspired other 
States to step up to the plate and it is time for the Congress 
to do the same.
    I happen to cochair with Mrs. Brooks of Indiana the Smart 
Cities, Smart Communities Caucus where I believe that there is 
a sweet spot, if you will, on the confluence of renewable 
sources, technology, as part of a sustainable 21st century 
energy delivery infrastructure.
    Have you given any thought to as we are going through our 
conversations about infrastructure--we talk about the grid 
oftentimes.
    We have oftentimes heard of smart grids. There is so much 
that technology avails us of today, whether it is sensors that 
give us an indication of high CO<INF>2</INF> in certain 
congested areas, there is a whole host of things and when you 
are talking about different renewable sources how we can look 
at sort of the development of ways in which we can maximize on 
that through our electric grid and through smart technology.
    Have you given any thought to that? Have you had any 
conversations around that?
    Mr. Inslee. You bet, and our--one of the things we are 
really proud of is the development of systems that can manage 
the grid much more effectively to integrate renewable energy 
and use storage capacity together.
    So I mentioned the Clean Energy Development Fund that we 
had. One of the companies that is coming out of this is now 
developing software to help manage the integration of electric 
batteries with the grid and that is moving forward very, very 
rapidly.
    Spokane, Washington, has a system of trying to have an 
integrated system and that is becoming more and more important 
because we also are developing better battery technology, and 
this is kind of the Holy Grail, actually, of renewable energy.
    Solar is coming down 80 percent. Wind is coming down 20 
percent. Now we need to continue the improvement of battery 
technology and that is happening.
    I will tell you just one little story. I had a young fellow 
come in from Jackson High School a few months ago. He won the 
National Science prize for the most, you know, scientifically 
productive high schooler in America or one of the few, and he 
said, look, I want to do something about climate change.
    And so he went out and he said, what is the most important 
thing I can do in clean energy, and he said, well, it is 
developing a better membrane for a battery that has better 
density and more heat management system.
    So this guy at age 17 or 18 went and invented a new kind of 
membrane that now has some real commercial possible potential. 
That type of innovation is going on like crazy and it is 
putting people to work in my State.
    Ms. Clarke. And when we talk about sort of creating that 
infrastructure, it would also address the concern that Mr. Long 
had about how you travel across a wide swath of area, given the 
life of a battery in one particular car.
    If you have an infrastructure where individuals are able to 
swap out cars, say, in a particular area where we have cars 
charging, then you get across a large State fairly rapidly. 
That is a whole new industry, that if we are creative enough, 
can be developed while we are decreasing our use of fossil 
fuels.
    So I think it is really just a matter--and I would love to 
get your thoughts on it, on ways that we are bringing up new 
industry while phasing out older.
    Mr. Inslee. So Mr. Long was talking about electric cars and 
I think electric cars are kind of an interesting example and, 
by the way, in Representative Long's district last year, 2,268 
people bought electric cars.
    So you got 2,000 people that like them and there has been a 
97 percent increase in the electrical car purchase in 
Representative Long's district last year. So there are people 
that are getting this across the country.
    But here is a story about electric cars. In about 2007--
2007, 2008 maybe--I asked General Motors to bring their Volt to 
Congress to show my colleagues what was coming, and when they 
brought it we wheeled it off on the backside of the Longworth 
Building.
    They brought it in a U-Haul truck because it didn't even 
have an engine in it. This was just 10 years ago. And my 
buddies came down and looked at it and said, Inslee, what are 
you doing--this is like a little toy here. It doesn't even have 
an engine in it. It's just a shell. This is ridiculous.
    This was only 10 years ago. OK. Now you got the Governor in 
Washington driving one and thousands of people doing it, and we 
are increasing--we are on the map to hit 50,000.
    So this is moving so fast in this technology. Today, when I 
bought the first Bolt a year and a half ago, the range was 160. 
The second version is 238, OK, today. I don't know what it is 
going to be a year from now, but it is going up.
    So we ought to be optimistic about this and----
    Ms. Clarke. Thank you, Mr. Inslee. My time is up, and I 
yield back to our chairman.
    Mr. Tonko. The gentlelady----
    Ms. Clarke. Thank you so much. I look forward to further 
conversations with you.
    Mr. Tonko. The gentlelady yields back.
    I will remind all of us that the Governor has a hard stop 
at noon, I believe. So if we can stay within that framework.
    The Chair now recognizes the gentleman from Texas, 
Representative Flores, for 5 minutes.
    Mr. Flores. Thank you, Mr. Chairman, and I appreciate the 
Governor being here for his testimony today.
    I want to say, Governor, there is one area where I totally 
agree with you. Well, let's say two areas. One, as like you 
have heard from most of the panel, we all agree that climate 
change is real. We all agree that man is having some impact on 
that.
    I also agree with you that we need to look at investment in 
R&D. R&D is where we develop the seed corn for the economy that 
is 10 to 20 years down the road.
    From a personal perspective, I am the largest residential 
producer of solar-generated electricity--solar power in Brazos 
County, Texas. I am pleased with that.
    I did this 10 years ago when it was still expensive to do 
it. And I was just looking at my little app here and it says I 
produced over 70 percent of my power for the last 70 days--
excuse me, 7 days.
    I have also converted about 95 percent of my lighting to 
LED. So I put my money where my mouth is when it comes to 
trying to reduce my environmental footprint.
    I was going through your testimony and in it it says that 
you want to transform your electricity system over the next 
decade to phase out coal power--coal-fired power by 2025 and 
increase the amount of renewable energy resources like solar 
and wind by 2030 and you want to be 100 percent clean by 2045.
    Where will you get the baseload power to do that? Because 
solar and wind are intermittant, where will you get your 
baseload power?
    Mr. Inslee. Well, we have considerable different sources 
and they all--when they can be integrated they can become 
baseload power and that is the great magic of storage systems 
that we are developing.
    Mr. Flores. OK. So storage is part of the solution?
    Mr. Inslee. Storage is part of the solution--a big part.
    Mr. Flores. OK. I want to come back to that in a minute.
    Also, one of the things--I want to go off on a tangent for 
a minute, and I heard you say that your bill is part of a 
package of legislation to leap further and faster into the 
clean energy economy.
    One of the things you said it includes is the use of 
cleaner transportation fuels. Can you elaborate on that for a 
minute? I imagine my friend, Mr. Shimkus, and I would be 
interested in that.
    Mr. Inslee. We have a whole host of alternatives that 
provide us cleaner transportation systems. We have electric 
vehicles, which are much cleaner than fossil fuel-burning 
vehicles. We have biofuels-driven vehicles where biofuels have 
a lower carbon footprint--many of the biofuels.
    Mr. Flores. OK.
    Mr. Inslee. We also have transportation systems--public 
transportation systems that are extremely efficient in low-
carbon transportation systems and finding a way to use all or 
some of those are very effective ways in trip reduction--trip 
reduction is an important low-carbon reduction opportunity as 
well and we are having a lot of success in that.
    Mr. Flores. In terms of fuels, you were talking about 
biofuels as well. We will drill into that offline somewhere. I 
would like to get your ideas on what you think about biofuels.
    You also talk about having an acceleration of deployment of 
electric vehicles on your roads and electrification of 
passenger ferries and you talk about putting you on track to 
reach a goal of 50,000 electric cars on the roads by the end of 
the year. How are you doing versus that goal of 50,000 electric 
cars?
    Mr. Inslee. We are on track to our ultimate goal and, by 
the way, I forgot to mention we do intend--we hope to build the 
first electric ferries what I believe will be the Western 
Hemisphere. We think that is both from a health and cost 
effective policy.
    Our electrification of our transportation fleet is going 
well because we have had several things----
    Mr. Flores. I have a shortage of time, so I am going to 
run.
    Mr. Chairman, if you don't mind I would like to request 
unanimous consent to introduce four exhibits into the record 
today. The first one is by the Institute for Energy Research. 
It is entitled ``China's New Environmental Problem: Battery 
Disposal.''
    The next one is by engineering.com. It says, ``Will Your 
Electric Car Save the World or Wreck It?'' The third one is by 
Amnesty International, where Amnesty challenges industry 
leaders to clean up their batteries. The fourth is ``The 
Mounting Solar Waste Problem.''
    [The information appears at the conclusion of the hearing.]
    Mr. Flores. The challenge is is that every time we try to 
come up with a new solution that it creates an environmental 
problem and I think we need to be responsible when we do that.
    Batteries and silicon have an environmental impact. We need 
to deal with that. In order to make lithium batteries we also 
create slave labor problems in certain Third World countries 
and also huge environmental problems.
     This all leads me to where I want to go and that is if we 
really want to have zero-emissions baseload capable power, we 
need to look again at next-generation nuclear.
    That is the key to having zero emissions that's clean 
baseload power. Solar panels can't do it without batteries. 
Wind can't do it without batteries. The only two sources that 
could do it are hydro and nuclear, and nuclear--excuse me, 
hydro seems to have its own set of environmental challenges 
these days.
    So I think we need to look at nuclear, Mr. Chairman. I 
haven't heard much about that in these conversations, and I 
hope that we do.
    I yield back.
    Mr. Tonko. The gentleman yields back.
    The Chair now recognizes, from California, Representative 
Ruiz for 5 minutes.
    Mr. Ruiz. Thank you, Chairman.
    Governor Inslee, it is great to see you here today. It is 
good to see you back in the committee where you served and 
thank you for coming to discuss local and State initiatives and 
policies to address the pressing issue of climate change. I 
represent California's 36th Congressional District.
    A bit biased--I think it is the best district in our 
nation. It produces the most renewable energy on Federal land 
in the country. We produced the most renewable energy on 
Federal land in the entire United States.
    Last year, the city of Palm Springs, located in my 
congressional district, was designated as a SolSmart Gold City 
by the National League of Cities for its effort to incentivize 
and use solar energy.
    In fact, many of the cities including Palm Desert, Indio, 
Cathedral City have put solar panels throughout their city 
halls, parking structures, and other facilities, even school 
districts. Rancho Mirage and Palm Desert have adopted solar 
ordinances for all-new constructions, et cetera.
    So it is a very renewable energy-friendly location and I am 
looking forward to see if there are any partnerships, 
communications structures, or anything that we could work 
together on.
    In addition, the San Gorgonio Pass--it is famous for its 
windmills in the movies that you see of cars and motorcycles 
driving through the 10--is one of the windiest places in my 
district and California and is home of nearly 2,000 wind 
turbines. Beautiful.
    And as you mentioned in your opening statement, the State 
of Washington is doing substantive work to promote renewable 
energy and strengthen our economy.
    Could you elaborate more on some of your successful 
renewable energy strategies you have implemented as Governor, 
particularly in the solar and wind renewable energy industries?
    Mr. Inslee. Yes. I talked a little bit about this. But we 
have had a spectacular success with our renewable portfolio 
standard and I say spectacular because we went from zero--
essentially, zero commercial wind energy, you know, 11 or 12 
years ago to a $6 billion industry in our State.
    You think--I mean----
    Mr. Ruiz. How did you do that?
    Mr. Inslee. So our voters were wise enough to pass 
something I backed, which was a provision that says you 
basically needed 15 percent of your utilities to develop from 
these clean energy sources.
    Mr. Ruiz. What did the State do to incentivize this?
    Mr. Inslee. So it was a requirement for utilities and it 
was resisted to some degree, who people did not think 
technology could solve this problem.
    But we developed from scratch a $6 billion industry. We 
also have a nascent solar industry, which a lot of people don't 
think of, you know, Washington. But two-thirds of our State is 
kind of semi-arid.
    So now we are building solar farms and one of the largest 
manufacturer of polysilicates that goes into solar cells is in 
Moses Lake, Washington. I think it is the largest manufacturer 
in the Western Hemisphere that supplies material that basically 
goes into solar cells. Some of it might be in Mr. Flores' 
rooftop right now.
    Mr. Ruiz. Have you done anything in regards to the 
workforce? Because if that is the energy of the future then we 
need to develop the workforce of the future.
    I introduced a bill called the Renewable Energy Jobs Act 
that will provide pilot programs for training individuals for 
employment in renewable energy and energy-efficient industries 
on site in these companies.
    But have you done anything--can you talk about any 
successful program in your State that promotes job growth and 
workforce training in the renewable energy industries?
    Mr. Inslee. Yes. In fact, we have a program we call Career 
Connect Washington. We are building a whole new avenue of 
career success because we think we have made a mistake telling 
people if you don't get a 4-year degree you are a failure. That 
is just wrong.
    The most rapidly growing two jobs is solar installer and 
wind turbine technician and those are good-paying jobs right 
now. We want to make sure they are. So we are building whole 
new apprenticeship protocols for development in our community 
colleges with our unions.
    I was recently at the IBEW training programs that are so 
successful. I think it was in Portland where I had a thousand--
they have a thousand apprenticeships, many of them in the solar 
part of that training program.
    So we know we can set people up for really successful 
careers.
    Mr. Ruiz. So what can we do in Congress to help States like 
yours and California and other places to develop this workforce 
and to foster more of the solar and wind energies?
    Mr. Inslee. Well, you can adopt federally what we have 
adopted, which will create a demand for these new careers.
    We certainly are always looking for financial support for 
our higher ed facilities that are involved in these training 
programs and we know that we have helped to try to--to help 
people finance these programs. We have one of the richest 
financial support networks for people in college but we could 
always use a little help.
    Mr. Ruiz. Excellent. I yield back my time.
    Mr. Tonko. The gentleman yields back.
    The Chair recognizes the gentleman from Oklahoma, Mr. 
Mullin, for 5 minutes.
    Mr. Mullin. Thank you, Mr. Chairman.
    Governor, thank you for being here. A couple questions for 
you, and I am going to try to reserve some time for my good 
friend from Montana.
    You're supporting eliminating all fossil fuels by the end 
of 2045, correct?
    Mr. Inslee. In the grid that's the goal.
    Mr. Mullin. In the grid?
    Mr. Inslee. Yes.
    Mr. Mullin. So--and you are proposing eliminating electric 
coal in less than 6 years, correct?
    Mr. Inslee. I am sorry. You said electric----
    Mr. Mullin. Electric-generated coal.
    Mr. Inslee. In our State, we are closing the remaining 
coal-fired plant----
    Mr. Mullin. And you're replacing those with what?
    Mr. Inslee. A whole host of different systems, including 
efficiency. It is one of the things we haven't mentioned here 
today, the first----
    Mr. Mullin. No. What are you replacing it with?
    Mr. Inslee. Efficiency, solar power----
    Mr. Mullin. Like what?
    Mr. Inslee [continuing]. Hydro, public transportation, 
electric cars, biofuel--the whole mix. And this is an important 
issue.
    Mr. Mullin. So are you--would you consider you are an all-
the-above energy guy where you are looking to bring stability 
for reliable low cost or reliable cost to homes and businesses? 
Would you consider yourself an all-of-the-above person?
    Mr. Inslee. I am not sure what you mean by ``all-of-the-
above.''
    Mr. Mullin. I am talking about all the above. Like, you are 
not really interested in picking winners and losers but letting 
the consumer have choice.
    Because Washington--the State of Washington is drastically 
different than, let us say, the State of Oklahoma or the State 
of Montana, where hydro may work for you, wind and solar may 
work for you. But there are parts of the country where it won't 
work.
    So what would you do about the States where it doesn't 
work, because it's about reliability. I mean, if you were to 
take all the fossil fuels off the market to generate 
electricity and you only had solar and wind, you would have to 
have 12 percent of the land mass just to cover that. That is 
the size of Texas. So are you really proposing that?
    Mr. Inslee. Yes. We are proposing in my State----
    Mr. Mullin. Where are you going to get the 12 percent of 
the land?
    Mr. Inslee. We are proposing in my State to----
    Mr. Mullin. Where are you going to get the 12 percent of 
the land? Because you are running for a higher office, so where 
would you get the 12 percent of the land?
    Mr. Inslee. Well, to start with, I don't know if you have 
heard me, but I have said I support research and development in 
multiple fields to try to develop other----
    Mr. Mullin. So you are all-of-the-above then?
    Mr. Inslee. If that is how you define it.
    Mr. Mullin. Well, I mean, are you--if you really want to 
eliminate fossil fuels, then that is not all-of-the-above. So 
either you are or you aren't.
    Mr. Inslee. Well, look, I just want to be straight with 
you. Here is what I--here's what I----
    Mr. Mullin. I am trying to. I am trying to give you an 
opportunity to be straight, and you haven't been yet.
    Mr. Inslee. The first order of business is to set a goal, 
and the goal----
    Mr. Mullin. But your goal is already set. You want to 
eliminate all fossil fuels by 2045. That is your goal. So where 
are you going to get the land mass to be able to eliminate all 
fossil fuels?
    Because, if you just depend on batteries for storage--
because we know that wind doesn't always blow and the sun isn't 
always shining. So where are you going to store it? We are 
going to rely on China for the special metals it is going to 
take to develop the batteries to which you are going to store?
    Mr. Inslee. As far as I can tell, you are in the same 
league with the President of the United States, who has never 
heard of batteries. We have a thing called batteries--let me 
finish.
    Mr. Mullin. No, I have heard of batteries. No. No, sir. No. 
No.
    Mr. Inslee. Let me finish--let me finish one question, will 
you?
    Mr. Mullin. No, don't accuse me of--don't accuse me of 
saying that I am in some type of league. Don't do that to me. I 
am asking you a question. If you are really about batteries and 
you are about the dependence--I am all-of-above-type guy.
    I am all about the storage. I have no problem with that. 
But if you only go to one area where it is going to rely on 
storage of power when the sun isn't shining and the wind isn't 
blowing, then where are you going to get the resources? Doesn't 
that recall--doesn't that require mining?
    Mr. Inslee. We have abundant sources, and what we are 
finding in our State--and these are the arguments I heard when 
we had the renewable portfolio standard.
    Mr. Mullin. It is not an argument. It is a question.
    Mr. Inslee. Well, people argued--people argued--people 
argued that it was impossible to integrate these systems.
    Mr. Mullin. Sir, it's not--it is not an argument. It is a 
real question.
    Mr. Inslee. I can't have an argument because you won't let 
me answer my question----
    [Laughter.]
    Mr. Mullin. With that, I am going to yield to the gentleman 
from Montana.
    [Laughter.]
    Mr. Gianforte. I thank the gentleman, and Governor, thank 
you for being here. You testified today that you are going to 
ban coal-fired electricity in your State. I appreciate that.
    My time is short here. I just want to highlight the fact 
that, you know, today in your State House you are considering a 
bill that would eliminate all coal-fired electricity.
    Much of this electricity is generated in Montana, and 
particularly in the town of Colstrip. It is a small town, 2,300 
people. Their livelihoods are threatened.
    You testified today that your policies have had no 
detrimental effect on any community and, Mr. Chairman, I would 
like to enter into the record this report from--if there is no 
objection--June 2018, ``The Economic Impact of Early Retirement 
of Colstrip Units 3 and 4.''
    That report by the University of Montana shows that Montana 
would lose over $5 billion in revenue. Montana would lose 
nearly two-thirds--3,300 jobs, and our population would go down 
by 7,000 people.
    And I would just offer that those are devastating impacts 
of your policy on Montana and our communities. You have also 
opposed building of a coal plant. I don't think that in your 
position as Governor you have jurisdiction over Japan. Japan 
wants to buy our coal. I think it's a constitutional issue.
    So I am here just to State that, you know, closer to home, 
you know, we have real issues with these policies, and I 
appreciate you being here, Governor, and I hope my colleagues 
can learn from, honestly, Washington State's mistakes instead 
of repeating them on a national level.
    And with that, I yield back.
    Mr. Inslee. Let me comment on this. I would--I would 
suggest that you look at the model that we have for the 
transition of our coal-fired plant in Centralia, Washington. I 
think you will find it has been very successful in helping that 
community through that transition because it was a consensus-
based product.
    It involved a substantial investment to help the working 
people who were associated with it and the consumers and the 
small business people.
    Mr. Gianforte. Governor, I would invite you to come to 
Colstrip, Montana with me to meet the people whose livelihoods 
you are extinguishing. You have my open invitation.
    Mr. Inslee. And I would--I would invite you to come meet 
the people who are having trouble breathing because of coal-
fired electricity pollution. These are the children of the 
State of Washington and the people whose houses are burning 
down.
    We both have constituents. All of them deserve our respect 
and attention and I think if we work together we can help them 
all.
    Mr. Gianforte. Sir, I would be happy--at this point, I take 
that as a no, you won't meet with the people of Colstrip. That 
is unfortunate.
    Mr. Inslee. I am happy to discuss this with you further.
    Mr. Tonko. The gentleman yields. The Chair now recognizes 
our last individual who asks questions here, and that will be 
Representative Schakowsky from the State of Illinois.
    Ms. Schakowsky. Well, I am so happy to be with former 
colleague and good friend, Governor Inslee today.
    I wondered if you wanted to talk a little bit more. This is 
the basis, I think, of many of the debates. Are we sacrificing 
jobs and communities for what I see as an existential threat 
from global warming and problems. Is there a way for us to 
balance that?
    Mr. Inslee. Well, I appreciate an opportunity to say that. 
The way I look at this is, there is a greater risk that we will 
lose jobs because we are not capturing here and they go to 
China and Germany.
    These jobs are going to be created. We are going to create 
millions of jobs because we have no choice but to do so. We 
know that over the next several decades we need to build a new 
clean energy system in the United States and worldwide, and so 
there are going to be millions of jobs in these industries.
    I want them to be in the United States in Washington State, 
not just China and Germany, and that is the central issue. We 
know that humans, I don't think, are consciously going to allow 
this place to become uninhabitable.
    I don't think we should. So this is a question of where the 
jobs are going to be created, not whether they are going to be 
created, and the central lesson I would share with you on my 
trip here is that they are being created when we have smart 
policies to build them and the people that I know now working 
in these clean energy sources, some of whom are children of my 
friends of 60 years, is really exciting for me to see these new 
careers.
    You know, a young family, a widow--she lost her husband--I 
got to know this family well. Now their kid's working in the 
solar industry making polysilicate that goes into solar panels.
    The folks that used to be in the timber industry now doing 
biofuels in Gray's Harbor--this is exciting when you get people 
to have new careers and that is what this effort is about, and 
I am just here saying we ought to have confidence to be able to 
do that.
    Now, I think it will help when both parties propose 
solutions to actually do that. I look forward to that happy day 
when the spirit of Teddy Roosevelt is here on both sides.
    Ms. Schakowsky. Thank you, because I think we are going to 
have to deal with this issue as we--as we go forward if we want 
bipartisanship and I appreciate your answer.
    My Governor--new Governor--Governor Pritzker has joined the 
Climate Alliance and I wanted to ask you about it. From your 
perspective, what has motivated many States to join the Climate 
Alliance?
    Mr. Inslee. Well, in part, election returns motivated 
people on occasion because they have seen people who have been 
elected recently. Seven Governors--new Governors--were elected 
on our side, and they all recognize the importance of acting on 
climate change.
    Your Governor has joined the alliance and taken some 
actions on I believe it is a 25 percent move towards clean 
energy in the grid, I believe, if I am not mistaken.
    We are looking at advances in wind and solar in Nevada and 
New Mexico. We are just looking at people seeing success. I 
think success is what has inspired people to move forward and 
that is why we--that is why I have come here in confidence.
    Ms. Schakowsky. So is this a matter--this Climate Alliance 
a matter of sharing information so that States can move forward 
without having to reinvent the wheel?
    Mr. Inslee. So we formed the Alliance for several reasons. 
One, to share information, share policies, share experiencing, 
share things that don't work so that we can learn from each 
other's mistakes and that has been very successful.
    Second, it was formed to make sure that the rest of the 
world does not give up on the United States. We want the rest 
of the world that is moving forward to know that we are still 
moving forward in our country and we are.
    This group represents over 60 percent of the economy of the 
United States. That has worked. The rest of the world is 
continuing to move forward in the Paris Agreement. So it has 
been successful in that regard and I have enjoyed working on a 
bipartisan basis.
    As I said, we have three Governors in this effort and we 
are working together. I hope that happens here, too.
    Ms. Schakowsky. What is the consequence, do you see--are 
the practical consequences of the United States pulling out of 
the Paris Accord?
    Mr. Inslee. Jobs going overseas and I don't want to see 
that. I want to see these jobs right here and I hope this 
Congress will help me do that. Look to your leadership.
    [Laughter.]
    Ms. Schakowsky. I see you looking at--I see you looking at 
the clock, Governor, and I don't want to keep you any longer. 
But I really appreciate your leadership on this issue, which I 
do see as an existential issue for humanity.
    Thank you. I yield back.
    Mr. Inslee. Thank you.
    Mr. Tonko. The gentlelady yields back.
    That concludes our first panel. We, again, thank you, 
Governor Inslee--the Honorable Jay Inslee--for joining us to 
testify on Washington State's efforts to combat climate.
    And at this time, I will ask that staff prepare the witness 
table so that we may begin our second panel shortly.
    Let us take that 5-minute recess to get that done.
    [Recess.]
    Mr. Tonko. OK. We are going to start with our second panel. 
We will hear from a group of local leaders from across our 
country that will share their work in combating climate change 
in their local communities.
    Those leaders include, from my left, the Honorable Steve 
Benjamin, mayor of the City of Columbia, South Carolina. We 
are--oh, there we go. Welcome, Mayor.
    Next to him is our other mayor, the Honorable Jerry F. 
Morales, mayor of the City of Midland, Texas. We then have the 
Honorable Jackie Biskupski, mayor of the City of Salt Lake 
City, Utah, the Honorable Daniel C. Camp, III, chair of the 
Beaver County Board of Commissioners, Beaver County, 
Pennsylvania, and then we have the Honorable James Brainard, 
mayor of the City of Carmel, Indiana.
    We want to thank our witnesses for joining us today. We 
look forward to your testimony. We will be recognizing each of 
you for 5 minutes.
    I will make the note that we will recognize that Honorable 
Steve Benjamin needs to--he has got a hard time to leave, a 
hard 12:45 by which he needs to leave. We are welcoming him 
here, and he needs to get back to South Carolina for city 
business.
    So we will try to do as much business here as possible. We 
will begin with perhaps Mayor Benjamin first and, again, we 
welcome all of our panelists here.
    Mayor, the opportunity for you is to be recognized for 5 
minutes now.

  STATEMENTS OF STEPHEN K. BENJAMIN, MAYOR, CITY OF COLUMBIA, 
   SOUTH CAROLINA; JERRY F. MORALES, MAYOR, CITY OF MIDLAND, 
 TEXAS; JACQUELINE M. BISKUPSKI, MAYOR, SALT LAKE CITY, UTAH; 
     DANIEL C. CAMP III, CHAIRMAN, BEAVER COUNTY BOARD OF 
COMMISSIONERS, BEAVER COUNTY, PENNSYLVANIA; AND JAMES BRAINARD, 
                 MAYOR, CITY OF CARMEL, INDIANA

                STATEMENT OF STEPHEN K. BENJAMIN

    Mr. Benjamin. Thank you, Mr. Chairman.
    Chairman Tonko, Ranking Member Shimkus, and members of the 
subcommittee, my friend, Congressman Duncan, from South 
Carolina. Thank you for allowing me to get in and get out of 
there.
    We believe, in South Carolina, also in Government by 
ambush. So if I am not at a city council meeting tonight I 
don't know what happens. So I am going to make sure I get back 
home.
    Thank you for this opportunity to testify before the 
subcommittee. Climate change is perhaps the biggest challenge 
we face as a nation, as a people, and I am pleased that the 
subcommittee is holding this hearing.
    My name is Steve Benjamin. I serve as mayor of Columbia, 
South Carolina, the capital of our State--a thriving and 
diverse city, home to over 134,000 people and the hub of a 
metropolitan area of over 800,000 citizens.
    In addition to State government, Columbia hosts nearly 
50,000 students attending the University of South Carolina, 
Columbia College, two historically black colleges and 
universities--Benedict College and Allen University--and we 
also are the proud home to Fort Jackson, the Army's largest 
training base in the country which trains approximately 45,000 
soldiers per year.
    For the past year, I have had the honor of representing my 
fellow mayors throughout the country as President of the United 
States Conference of Mayors. At the national level, I also 
served as chairman of Municipal Bonds for America, cochair of 
the Sierra Club's bipartisan Mayors for 100 Percent Clean 
Energy Initiative, and as a past president of the African-
American Mayors Association.
    I have been fortunate to serve in these national leadership 
positions at a moment when mayors and local government 
officials have attained renewed prominence and have been widely 
recognized as being in the forefront of public policy 
innovation, including climate change.
    However, we cannot tackle this challenge alone. We need a 
strong Federal partner and I hope this hearing will be the 
first step in the development of a climate action program, one 
that recognizes and bolsters the efforts mayors and cities are 
taking to address this existential challenge.
    As with so much of what mayors and cities do, our 
leadership in climate change has been pragmatic. Mayors and 
cities, Republican, Democrats, independents have been pragmatic 
because we have no choice.
    Climate change is already impacting our communities and 
testing our infrastructure. We have acted because our 
constituents expect us to tackle challenges and fix problems 
while also delivering a balanced budget on time each year.
    In Columbia, unfortunately, we witnessed firsthand in 2015 
over 3 days in October the remnants of Hurricane Joaquin 
stalled over central South Carolina, inundating Columbia with 
nearly 30 inches of rain.
    Across the Carolinas, 12 trillion gallons of water fell. 
Hurricane Joaquin's impact on Columbia was dire, taking the 
lives of precious South Carolinians.
    In addition, the storm nearly wiped out the Columbia Canal, 
which serves as our main drinking water treatment plant, 
ruptured dozens of water and sewer mains, closed over 100 
streets, flooded one fire station and a primary fire training 
facility, breach multiple dams and damage nearly 400 homes and 
60 businesses.
    Since then, we have had other--several other major rain 
events. Though Joaquin was a 500-year event, heavy rain events 
are apparently becoming the new normal.
    Like cities throughout our country, the city of Columbia 
has been addressing climate change on several fronts for over 
decade. In 2009, with assistance from the Energy Efficiency and 
Conservation Block Grant, we conducted an energy audit and 
implemented several of the audit's recommendations, including 
upgrading lighting systems, HVAC upgrades on city buildings, 
and installing solar panels on fire stations.
    These projects reduce our greenhouse gas emissions and 
energy consumption and save Columbia taxpayers approximately 
$337,000 per year. In addition, one of my first priorities when 
I took office was to upgrade and rationalize our regional 
transportation to increase ridership.
    We have also accelerated our efforts to deliver more 
pedestrian and bicycle infrastructure throughout our 
city.Combined with the thousands of new units of being deployed 
in open and downtown Columbia, this has set the stage for us to 
truly offer meaningful options to the car with the added bonus 
of creating a vibrant, lively, and beautiful downtown.
    Two years ago, Columbia took the next step, setting a 
target of powering our community with 100 percent clean and 
renewable energy by 2035.
    In addition to our climate change prevention efforts, we 
have been actively addressing mitigation. We bit the bullet and 
increased storm water fees to fund a wide array of projects to 
improve our storm water system using both gray and green 
infrastructure.
    We also issued our first-ever green bond in December, 
allowing the city to finance upgrades and improvements to our 
storm water system, earning the first climate bond initiative 
certification of a stand-alone storm water project in the 
country.
    We have worked hard in Columbia, as cities have throughout 
the country. But I am here today to tell you that mayors and 
cities alone cannot tackle this challenge. We need the strong 
Federal partner.
    I have attached my testimony to the 2007 open letter to 
presidential candidates, signed by 100 mayors from across South 
Carolina, including my predecessor, calling for Federal 
leadership on climate change.
    That letter is 12 years old, asking for a strong Federal 
partner. Since then, the need for action has become that much 
more urgent.
    I am also very pleased that Chairman Tonko has issued a 
blueprint for action, a framework for climate action in the 
United States Congress, and we are particularly pleased that 
the framework empowers State and local governments and 
strengthens community resilience and certainly avoids harm to 
first movers.
    We recognize that it takes bold leadership and bold action 
to make some moves here first. In January, the Conference of 
Mayors released its own mayors' call for climate action. That 
is included as an attachment to my written testimony.
    I would respectfully suggest that some of our specific 
proposals provide Congress a way to flesh out and implement 
some of Chairman Tonko's framework in a manner that would help 
mayors and cities meet the climate challenge.
    Many of these proposals could be implemented and produce 
results quickly while Congress debates a larger package, a more 
comprehensive climate strategy that helps meet the needs of our 
respective communities all across the country.
    These include--as I conclude--reauthorizing and fully 
funding the Energy Efficiency and Conservation Block Grant 
Program in fiscal year 2020 and beyond, establishing and 
implementing a national greenhouse gas emission reduction 
standard by 2030, a DOT--an aggressive national renewable 
portfolio standard and providing sensors for electric utilities 
including municipal electric utilities to invest in clean and 
renewable energy, direct the EPA to maintain and approve CAFE 
standards provide incentives for the energy sector to ramp up 
and research investments in renewable energy, modernize the 
nation's electric utility grids, to provide transportation 
funding to help metropolitan areas and local areas invest in 
low-carbon mode-neutral transportation options, creating 
increased funding for the surface transportation block grant, 
increase funding for transit. Invest and improve inter-city 
passenger rail.
    Mr. Tonko. Mr. Mayor?
    Mr. Benjamin. Yes, sir.
    Mr. Tonko. I need you to wrap up.
    Mr. Benjamin. Yes, sir. And I will close with this. One 
major issue, Congress has shown leadership in preserving the 
tax exemption on municipal bonds that allows us to deliver the 
infrastructure.
    We did, however, make a mistake in the Tax Cut and Jobs 
Acts by removing the ability to advance refund bonds and save 
us money as we deliver on that infrastructure--the vast 
majority of American infrastructure. We need that addressed by 
Congress.
    Thank you for the opportunity to testify. I hope our 
testimony and the attachments in the much larger proposal can 
give Congress some ideas to quickly implement and help bolster 
our local government efforts.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Benjamin follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	
    
    Mr. Tonko. Thank you. Thank you, Mr. Mayor. Good to see you 
again and thank you for----
    Mr. Benjamin. Thanks again. Thank you.
    Mr. Tonko [continuing]. Appearing before the subcommittee.
    Next we will move to Mayor Morales, please. You are 
recognized for 5 minutes.

                 STATEMENT OF JERRY F. MORALES

    Mr. Morales. Thank you, Mr. Chairman. Thank you. It is an 
honor to be here among--thank you very much. Exciting to be 
able to be here to represent Midland, Texas, west Texas, and 
the Permian Basin. I am Mayor Jerry Morales.
    I have been in office for 6 years and been on City Council 
since 2008. So it is--you can't understand how honored I am to 
represent the city of my hometown, Midland, Texas.
    Midland, Texas, is also known as the Tall City. Many would 
think that a city out there in the middle of the desert would 
not have any tall buildings. Very similar to the city of 
Houston, Texas, but on a smaller scale--size of 165,000 people.
    The city of Midland itself is approximately 90 square 
miles. Since 2014, Midland has been ranked one of the largest 
and fastest growing cities in the nation--fastest growing 
cities in the nation, not the largest, right--during this time.
    We are home to 20 major oil and exploration companies. The 
Permian Basin is a large sedimentary basin in the southern 
western part of the United States of America.
    The Greater Permian Basin comprises several components of 
basins. Of these, Midland is the largest. The Delaware Basin is 
the second largest and the Marfa Basin is the smallest.
    The Permian Basin covers more than 86,000 square miles and 
extends across an area approximately 250 miles wide and 300 
miles long. The Permian Shelf is one of the top five producing 
shelves in the world and soon will be in the top two.
    To date, the Permian Shelf transports 3 million barrels of 
crude oil per day and by the summer of 2019 may be transporting 
4+ million and by 2020, when transportation lines could hit 
over 6 billion barrels--6 million barrels of oil a day.
    The Permian Basin is already a star, but now it will even 
shine brighter. What the U.S. Geological Survey numbers mean is 
that the Permian Basis is the largest single reservoir oil and 
gas in the United States of America and is also one of the 
largest on local soil.
    We are challenged, of course, being a shining star and 
growing so fast. Today, one of the issues challenging Midland 
is 15,000 oil workers are lacking in our industry.
    In the last--Midland's unemployment rate for the last 6 
years has been on an average of 1.9 to 2.55 percent, which 
makes us one of the lowest unemployment in the nation. Midland 
also has a housing crisis due to the influx of oil and gas 
families moving into the area. Our inventory as of today has 
less than 300 homes, where 2 years ago we had more than 3,000 
homes.
    The Midland-Odessa area recently came out of a 7-year 
drought and during that drought Midland reduced its water 
consumption by 20 percent. We call it the blue gold.
    During that drought and even today the oil companies played 
a responsible part in retracting their need of water for 
production by going under the Ogallala Reservoir and pulling 
the brackish water and repurposing it for their own industrial 
use.
    These oil companies are not allowed to use municipalities' 
water resources and in the last 100 years there have not been 
any incidents of earthquakes or tremors that have been 
associated with drilling activity in the Permian Basin.
    Air quality has always been--maintained a good bill of 
health, probably due to our west Texas tornadic winds that we 
have out there, so it keeps it kind of fresh and clear. 
Property values have increased. Sales tax receipts are at 
record highs and businesses have seen 15 to 25 percent growth 
in the respective businesses.
    Two years in a row Midland has been ranked third by 
SmartAssets as the best city in the nation for living the 
American Dream. The Permian Basin Board of Realtors reported 
that the average price for a home was sold for more than 
$269,000 and Midland has a median income of $75,000.
    Mr. Sheffield, CEO of Pioneer Resources, stated that the 
sustainable operation could continue for a minimum of 10 to 15 
years.
    With this recent announcement, Pioneer and the city of 
Midland entered into a public-private partnership where Pioneer 
will spend an excess of $130 million to rehabilitate the city's 
secondary and water treatment plant. The city of Midland will 
then sell this treated water back to Pioneer to be used for 
operational purposes.
    This partnership will save taxpayers money, ensure that 
Midland has treated water in case of another drought, and 
reduce truck traffic through transportation lines and for 
infrastructure uses.
    While methane emissions have been raised as concerns by 
detractors of the industry, a large majority of methane 
emissions from production of the Permian Basin centers around 
flaring necessitated by lack of takeaway capacity.
    However, there is an estimated 14 billion cubic feet per 
day of additional natural gas, pipeline capacity that is 
scheduled to come online in the Permian Basin by the end of 
2022, according to the Texans on natural gas.
    Once these pipelines are in place, even with the increased 
production, methane emissions in the field will be greatly 
reduced. The entire Permian Basin is a region larger than the 
States like Alabama.
    With such a large footprint you can find diversity of 
people and communities. Some companies have also--are also 
contracting with cities like Midland and Odessa to use their 
wastewater in these recycling processes.
    Even in the relatively sparse populated Permian Basin, 
there are concerns about protecting our native species in their 
habitats. Unprecedented efforts such as the range wide plan for 
the lesser prairie chicken, which covers five States, including 
Texas, New Mexico, Oklahoma, Kansas, and Colorado, as well as 
more localized conservation plans for species like the dunes 
sagebrush lizard and the Texas hornshell mussel.
    Municipalities do not regulate down-hole drilling nor do 
they control where water comes from from the drilling and 
fracking process. The State of Texas' agencies regulate these 
areas.
    The city of Midland does not encourage operations to use 
water from deeper depths, being the Santa Rosa, water instead 
of freshwater aquifers. In addition, many operations are 
reclaiming water production, which is produced by--as a 
byproduct of oil and gas production.
    Diamondback Resources has switched to an alternative of 
deep burial pits recently which meets State guidelines to more 
environmental alternative of biotechnology treatment, which is 
a pit remediation process. The pit closure will meet or exceed 
the requirements of the applicable Railroad Commission rules 
and Texas Commission of Environmental Quality.
    So these are some ideas to show that what we are doing in 
west Texas and Midland is working with our 20 majors, being 
responsible of not only the environment, the climate, but of 
our communities and the people who work there and live there.
    We are excited that our shelf is not only productive 
economically for the city of Midland but for the State of 
Texas, United States of America, and even the world.
    Thank you for the opportunity to be here to speak.
    [The prepared statement of Mr. Morales follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	
    
    Mr. Tonko. Thank you, Mayor.
    We are supposed to have votes around 1:00 o'clock so I am 
going to ask that everyone stay strictly to the 5-minute time 
frame so that we can get questions in.
    Next, we will move to the Honorable Jackie Biskupski of the 
City of Salt Lake City. Welcome.

              STATEMENT OF JACQUELINE M. BISKUPSKI

    Ms. Biskupski. Thank you, Mr. Chair, and members of the 
committee. It is an honor to be here before you.
    I come as the mayor of Salt Lake City, home to over 200,000 
residents, including my two sons, Archie and Jack. I mention 
them because my plea to you today has everything to do with 
their future and the future of millions of young people like 
them in America's cities.
    As both a mayor and a mother, I am working to protect the 
health and well-being of all people as the causes and effects 
of climate change are felt across the State of Utah. Surrounded 
by the towering peaks of the Wasatch and Oquirrh Mountains, my 
city is beautiful on most days.
    Thirty years ago, I arrived in Salt Lake City for a ski 
trip and I never left. Unfortunately, each year since during 
the hot summer months and the cool winters our air is filled 
with a dirty haze we know as the dreaded inversion.
    On these days, parents along the Wasatch Front send their 
kids to school wearing face masks to protect them from the 
harmful pollution trapped in the air.
    This pollution, almost half of which is caused by vehicle 
emissions, impacts our quality of life almost daily and is 
contributing to the long-term effects of climate change such as 
wildfires and droughts.
    Some of you may know of Salt Lake City as the winter sports 
paradise. As the host city of the 2002 Winter Olympic and 
Paralympic Games, and now the USOC's choice to host a future 
Winter Games, Salt Lake City is, without question, the U.S. 
capital of winter sports.
    This distinction helps drive nearly $1.3 billion to our 
State's economy. Our water and winter sports industry are 
partners in driving thousands of jobs, driving tourism and 
businesses into the region.
    So you can imagine how alarmed we are when reports indicate 
we have lost five weeks of snowpack just in the last 20 years. 
Surface water such as snow also makes up the vast majority of 
our drinking water, and although Salt Lake City population is 
just over 200,000 people, the city provides water to more than 
a million people in our valley.
    With every degree of warming, we experience, we estimate, 
nearly a 4 percent decrease in overall water volume emanating 
from the streams and creeks in the Wasatch Mountains. As one of 
the fastest growing regions in the nation, we cannot afford to 
lose more of our snow.
    Yes, we have had a good winter this year. But we are still 
recovering from a 30-year low in 2018 and many years of 
drought. While I could go on discussing the issues we are 
facing including the unprecedented wildfires we had in 2018, 
all of which is detailed in my written statement, I would like 
to share with you what we are doing to act on climate change.
    In 2016, Salt Lake City became the sixteenth city in the 
nation to establish a 100 percent clean energy goal. To fulfil 
this pledge, we have taken action including passing a cost-free 
energy bench marking ordinance estimated to remove 29 tons of 
pollutants from the air annually.
    We are building green infrastructure, the first net-zero 
public safety building in the nation, and just last year 
completed the first two net-zero fire stations in the country.
    To reduce vehicle pollution, in 2018 Salt Lake City made 
the largest local investment to date in public transit, 
allowing us to implement the first phase of a multiyear 
strategy to create high-frequency bus networks across our city.
    Through savings and partnerships with Delta Airlines and 
the Federal Government, Salt Lake City is building at $3.6 
billion international airport which, when completed, will be 
LEED Gold certified.
    Perhaps most significantly, Salt Lake City, Park City, 
Moab, and Summit County have been working with our utility, 
Rocky Mountain Power, to establish a framework to allow our 
communities to have net 100 percent renewable electricity by 
2030.
    This is an unprecedented collaborative effort between an 
investor-owned utility and the communities it serves. Just last 
Friday, Governor Gary Herbert signed into law the Community 
Renewable Energy Act, which is the legislation we needed to 
continue building this framework.
    I shared the successes with you today to highlight our 
investment by the Federal Government and how that could help us 
increase the action of our local communities.
    Thank you.
    [The prepared statement of Ms. Biskupski follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	
    
    Mr. Tonko. Thank you very much, and right within 5 minutes. 
So thank you.
    Next, we will hear from the Honorable Daniel Camp III, who 
is the chair of Beaver County Board of Commissioners, Beaver 
County, Pennsylvania.
    Welcome.

                STATEMENT OF DANIEL C. CAMP III

    Mr. Camp. Thank you. Thank you, Chairman Tonko, Ranking 
Member Shimkus, and members of the subcommittee for inviting me 
to speak today on behalf of Beaver County, Pennsylvania.
    It is an honor to be here in front of you, somewhere where 
my former Congressman and dear friend, Ron Klink, served when 
he was a Congressman here.
    My name is Daniel Camp and I am the chairman of the Beaver 
County Board of Commissioners. Of the 67 counties in the great 
Commonwealth of Pennsylvania, I am currently the youngest 
county chairman.
    I sit on the Natural Gas Task Force for the County 
Commissioners Association of Pennsylvania. About 25 miles 
northwest of Pittsburgh, Beaver County, Pennsylvania sits 
alongside the most northern part of the Ohio River and has 
approximately 168,000 residents.
    Throughout most of the 20th century, Beaver County and its 
steel mills laid the foundation for the United States and the 
world. We designed, manufactured, and produced steel used in 
bridges, skylines, and icons throughout our great nation.
    Beaver County rode this wave of economic growth throughout 
most of the 20th century. But eventually, in the 1980s, our 
good fortune came tumbling down. American steel turned its back 
on Beaver County. Mills shut down, unemployment peaked. But we 
persevered. We came back. We knew we had a foundation for a 
great restoration.
    Today, energy drives our economy. With an investment 
measured in the billions, we partnered with an engine that 
would fuel the nation. In Beaver County, we are proud of our 
past but we are also confident in our energy future.
    The current energy boom in Beaver County started with the 
Marcellus Shale. Approximately 10 years ago, Beaver County 
started to see the effects of the technological advancements 
that made developing the Marcellus Shale possible.
    In addition to the billions of dollars in bonuses and 
royalty payments made to Pennsylvanians who leased their lands 
and property for natural gas extraction in 2012, the 
Pennsylvanian General Assembly imposed a special tax on the 
industry called an impact fee, which is paid annually by the 
unconventional natural gas producers for each well drilled.
    In its report in 2018, Beaver County received approximately 
$500,000 from the impact fee, which has increased of about 
$160,000 from the prior year.
    In addition, the county's 54 municipalities received a 
combined $618,000, nearly double the amount from the year 
before. All told, between allocations to the county, 
municipalities, and impact fee-funded projects, Beaver County 
has received $5 million for the public infrastructure 
improvements, emergency preparedness and response, 
environmental protection, social services, parks and green 
spaces, and tax reduction.
    In 2016, Shell Chemical Appalachia announced it would build 
a petrochemical complex in Beaver County that would use a low-
cost ethane being produced from the Marcellus and Utica 
formations to produce 3.5 billion pounds of polyethane per 
year, creating a foundation for the regional manufacturing of 
pharmaceutical, industrial chemical, and plastic.
    Indeed, from lifesaving medication and medical equipment to 
the cell phones we use every day, plastic source like the 
Marcellus enhance our quality of life to make our modern world 
possible.
    Shell's decision to build this complex in Beaver County was 
a major coup for not only Beaver County but our entire region, 
including West Virginia and Ohio. And at its peak, 6,000 
construction jobs will be necessary to build the complex and, 
once operational, it will support approximately 600 permanent 
well-paying, family-sustaining jobs.
    The site currently supports hundreds of electricians, 
pipefitters, iron workers, carpenters, laborers, equipment 
operators, and other craftsmen. Many of these workers travel 
from out of the area to work--to the work site and have 
therefore spurred our hotel industry in Beaver County.
    We now have 33 hotels in the county when 10 years ago we 
had four, many of which were built as a direct result of the 
influx of these workers who now spend their entertainment 
dollars locally, eat at local establishments, and otherwise 
have helped to revitalize local businesses.
    Infrastructure has also improved in and around the 
construction site, new roads and repaving of existing roads 
directly from the cracker plant.
    An improved interchange in the Interstate 376 was built to 
handle the additional traffic in the area, and additionally, a 
new water intake system was built for the local municipalities 
because the plant was built where their water intake system was 
previously located.
    Once the plant is operational, we anticipate additional 
growth in the manufacturing sector as our region becomes 
attractive for companies seeking to locate in close proximity 
to the abundant amount of supply of polyethane produced in 
Beaver County.
    In turn, we hope to see the expansion of the professional 
services and that is supported as well, such as engineering and 
architecture.
    Beaver County has tremendous potential and that potential 
stems in large part from the economic opportunity Marcellus 
Shale presents. Without a doubt, our modern world is built on 
energy and our future hinges on the ability to leverage our 
domestic energy resources.
    To fuel our economy, grow manufacturing, employ America's 
labor workforce, and continue to propel our country forward as 
a global leader, I am proud to represent a county that is 
integral to making this future possible.
    As you deliberate your policy changes, I am here to ask you 
to consider the monumental impact American shale gas 
development has had on our country and support this economic 
driver as vital to our shared future.
    In closing, I would like to thank you for this opportunity 
you have given me to come before you and speak today.
    [The prepared statement of Mr. Camp follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	
    
    Mr. Tonko. Thank you, Honorable Daniel Camp.
    And finally, we will hear from the Honorable James 
Brainard, who is mayor of the City of Carmel, Indiana.
    Welcome.

                  STATEMENT OF JAMES BRAINARD

    Mr. Brainard. Thank you, Mr. Chairman, members of the 
subcommittee.
    Carmel is a city of about 100,000 people on the northern 
edge of Indianapolis that has gone through tremendous 
transformation during the last few decades.
    Carmel consistently is ranked among the best places to live 
in the country, having been named best place to live in America 
by Money Magazine in 2012. That is a good day for a mayor.
    Carmel recently was ranked number one best suburb to live 
in in America by Niche.com, listed as one of the safest cities 
in America by SafeWise and was named the number-one best place 
to launch a career by Money Magazine last year.
    We are successfully making our community safer and 
healthier for our residents, businesses, and visitors through 
initiatives aimed at reducing pollution and harmful emissions.
    I have also shared our initiatives and the importance of 
building a resilient city, more broadly, speaking in India in 
2015 as part of a U.S. State Department initiative on climate 
change and in Germany in 2015 as part of the Chairman of the 
American Institute discussing climate change mitigation in city 
management.
    I have also shown my support here nationally as one of the 
original signers on the Conference of Mayors Climate Protection 
Agreement and, ultimately, over 1,200 mayors from both parties 
throughout the United States signed into the agreement and 
pledged local efforts to help achieve greater reduction of 
harmful emissions.
    I have cochaired the Congress of Mayors' Energy 
Independence and Climate Protection Task Force. I have also 
learned a great deal, as one of the few Republican members on 
President Obama's task force on climate preparedness and 
resilience.
    All of these have been experiences that have broadened my 
perspective and understanding of the issues that we are facing. 
It is our job to find the best solutions that will yield the 
best results.
    More locally for me, farms just outside of Carmel and 
throughout the State of Indiana have felt the impact of climate 
change. Purdue University's climate change research center 
released a report last year detailing the negative impact 
today's climate is having on our agriculture, including 
declining yields, the change in which crops will grow in the 
State, increased risk of heat stress to livestock, and the 
decreased quality of soils in general, which could impact food 
security for all of us.
    I am often asked by younger Republicans and students why, 
as a Republican, am I strongly advocating for conservation and 
environmental initiatives. I remind them that the root of the 
word conservative is to conserve and that many environmental 
initiatives have been initiated and implemented by Republicans.
    It was Teddy Roosevelt who preserved 230 million acres of 
wilderness and established five national parks, created the 
Forest Service. It was Richard Nixon, a Republican, who signed 
into the National Environment Policy Act, the Marine Mammal 
Protection Act, the Environmental Pesticide Control Act, and 
the Endangered Species Act which, along with banning DDT, 
helped rescue the American bald eagle.
    It was Indiana's own William Ruckelshaus, a Republican, who 
was first head of the Environmental Protection Agency. It was 
Ronald Reagan, of course, a Republican who enacted the Coastal 
Barrier Resource Act and the Water Resources Development Act.
    It was President George H. Bush, a Republican, who signed 
onto the Global Change Research Act in 1990 which requires 
every 4 years an assessment of the findings to be made and 
reported.
    I often tell our young Republicans that improving the 
environment doesn't have to take the form of regulations that 
hurt businesses or economy.
    We need to search for answers that help our environment 
while presenting opportunities to encourage thousands of new 
green jobs that save energy or make renewable energy. We should 
be researching and developing products and technology that the 
citizens of this country and the rest of the world are 
demanding.
    And that is why I am here today, though, to report on how 
communities such as Carmel are working to become as resilient 
as possible while dealing with the impact of poor air quality.
    For our cities, this is about the need to address global 
warming's impact on our storm water, our utility systems, and 
other city services including our emergency responses in the 
event of tornadoes, hurricanes, and other disasters. It is 
about developing better codes.
    So some of the things we have done in Carmel we have 
replaced 122 of our signalized intersections with roundabouts. 
Not only do we get an 80 percent increase or decrease, rather, 
in injury accidents, last year our city engineer estimated we 
saved about 28,000 tons of carbon.
    We are using city design principles, building a more 
walkable city. We do mixed use zoning so that when people do 
have to make car trips they are shorter trips. And we have 
installed more than 200 miles of trails and paths.
    Since 2005, we required alternative fuel vehicles be 
purchased by city departments when available. This month, our 
police department announced that we are switching to a 130-car 
fleet of renewables.
    I have got a little bit more so I am going to switch to the 
ask here as I see I have only a few seconds left. We all know 
about revenue sharing and how it was a Nixon program--a 
Republican program. CDBG grants was a great example, a program 
from the 1970s that is still around.
    We worked hard at the Conference of Mayors with you and 
with this committee to get the energy efficiency and 
environmental block grant program authorized. It was funded 
during the stimulus for the first time. We are asking that you 
do that again.
    It is a big country. All the cities have different needs. 
It is a great way to partner with the Federal Government but 
yet with local decisionmaking using that money where it can 
best utilized for our citizens.
    We ask that you consider that. Thank you.
    [The prepared statement of Mr. Brainard follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	
    
    Mr. Tonko. Thank you. Thank you very much.
    We have now concluded witness opening statements for our 
second panel. We will now move to Member questions. I recognize 
myself for 5 minutes for questions, and I thank all of our 
mayors and the chair of the County Board of Commissioners for 
joining us and sharing their perspectives today.
    You mostly likely heard me ask our previous guest, Governor 
Inslee, about what Congress can learn from your experiences as 
leaders. And I am guessing your community was not as active 
doing this sort of clean energy or resilience work a decade 
ago.
    Why do you think that things have changed so much?
    Mayor----
    Mr. Morales. The Permian Basin in Midland, Texas--Odessa, 
Texas, our sister city--what we have learned from the these oil 
and gas companies which makes up 90--probably about 90 percent 
of our industry out there is technology. Technology following 
these companies, seeing how they are advancing, how they are 
getting more efficient, has allowed them----
    Mr. Tonko. OK.
    Mr. Morales. Yes?
    Mr. Tonko. No, I just want you to just give me a quick 
answer here because we only have----
    Mr. Morales. Sure. Technology.
    Mr. Tonko. OK.
    Mayor Biskupski?
    Ms. Biskupski. Yes. For us, it is truly about clean air. It 
is very difficult to breathe many days out of the year due to 
the inversion that we have.
    And so it is the number-one issue regardless of party 
affiliation.
    Mr. Tonko. OK. And let us hear from our other mayor. Mayor 
Brainard, why do you think things have changed so much?
    Mr. Brainard. I think for us it is about quality of life 
and being able to attract the best workforce possible from all 
over the world. Air quality, clean drinking water, clean air 
quality is important. It is important to us. It is important to 
our citizens.
    Mr. Tonko. In my opening statement, I stressed the need to 
empower local governments. Federal resources and technical 
assistance are important but I believe this is--we also need to 
include an appropriate level of flexibility.
    The conditions in Salt Lake City or Carmel or Seattle or 
even Amsterdam, New York, my hometown, vary dramatically. Does 
anyone have thoughts on the types of programs that offer the 
flexibility that local officials or mayors need to address 
their local conditions?
    Mr. Brainard. Mr. Chairman, if I may go back to what I said 
at the end of my comments. The Energy and Environmental Block 
Grant Program is a wonderful idea. Patterned after CDBG, it 
works.
    We recognize we are a big country. Different cities, as you 
say, have different needs. But the Federal partnership, Federal 
money, local decision making within the broad category of 
environmental improvement works very well.
    We get to decide locally where it can best be utilized, how 
we can match it best for local dollars to have the greatest 
impact and do the greatest good.
    Mr. Tonko. And could you cite an example within your 
community in Carmel that----
    Mr. Brainard. Sure. During the--thank you.
    Mr. Tonko [continuing]. Most benefit from that?
    Mr. Brainard. Sure. During the stimulus, Carmel received 
about $700,000 in an Environmental Energy Block Grant. We used 
it to switch out most of our street light to LED lights.
    We reduced, as a result of doing that, our energy 
consumption for those lights by close to 50 percent and getting 
a return in excess of 10 percent in electricity savings on that 
investment. It is a lot better than we can do in the bank these 
days.
    Mr. Tonko. And Mayor Biskupski?
    Ms. Biskupski. Yes. Similar experience for us in utilizing 
Federal dollars.
    I will add, though, that in the long term it would be very 
helpful if there was a bipartisan legislative act that was 
passed.
    So if you--in long-term view, energy innovation and carbon 
dividend act and you passed that, that is a long-term solution 
that would be very helpful and would create about 2.1 million 
new jobs and reduce our emissions by 40 percent in this 
country.
    Short term, though, I think the Energy Efficiency and 
Conservation Grant has been very helpful and should be 
renewed--the EPA-targeted air shed grant, Department of Energy 
Solar Cities Grant, or the--and/or the congestion mitigation 
and air quality improvement program, all of which have helped 
our cities across this country.
    Mr. Tonko. In terms of the energy and efficiency 
improvements, what would you cite in terms of gains that you 
made with some of those programs that you just mentioned?
    Ms. Biskupski. Yes. So on energy efficiency, we are shoring 
up opportunities with our buildings and our property owners.
    So what we are doing now is bench marking and that provides 
real transparency for property owners to see how they are 
measuring up in contributing to our air quality problem and 
that tool, in and of itself, has been very helpful in showing 
to our property owners what is happening with their buildings 
and what they can do and how they can partner with our public 
utilities opportunities and the grants that they provide and 
then also pull down some matching dollars.
    Mr. Tonko. Thank you.
    The Chair now recognizes Mr. Shimkus, our Republican leader 
for the subcommittee, for 5 minutes.
    Mr. Shimkus. Thank you, Mr. Chairman.
    Again, we appreciate you all being here, and everybody 
wants their children or grandchildren to live in a community in 
which they have opportunities to grow. So I was touched by 
Archie and Jack, and that focus.
    I want to ask Mayor Morales and Commissioner Camp, would 
Archie and Jack--are they better off now in your community 
because of oil and gas development from the aspect of health, 
interaction to education, and future job opportunities, and can 
you give me some examples of that?
    Mr. Morales. Yes, most definitely, and thank you. It is--as 
I just alluded to, technology has really brought the oil 
company and been able to allow these companies to drill more 
effectively in less time and more advanced manner in the sense 
of between the city ordinances and the State ordinances, the 
Railroad Commission, you are seeing less and less and less rigs 
go up.
    So a good example, sitting with the Apache Corporation, a 
large producer in Texas----
    Mr. Shimkus. What about going to the infrastructure, 
education? What has helped for the tax revenue, based upon the 
local community and how that has improved just the everyday 
livelihood?
    Mr. Morales. So then I will just, because of the shale and 
because of the technology and the drilling, it has then brought 
these families that we are seeing a mass increase into our 
community which means then those companies have to participate 
in helping us with road infrastructure.
    They are putting in their dollars in the healthcare system 
in the healthcare system, into the environmental impacts.
    Building codes now are up into 2018 codes. So I would say 
that today, because of the oil companies and the impact that 
they are having in our community, it is public-private 
partnership and one that they know that their children are on 
the roads, one that they know the community cannot handle 
alone.
    And so their dollars are being participated on the 
infrastructure and utility work, in our school, our healthcare 
system and knowing that that kind of partnership is what is 
going to make----
    Mr. Shimkus. And let me follow up.
    In rural America, there is a lot of--always a lot of 
concern about the first generation or second generation. They 
are leaving because there are no jobs available.
    Is that true for Midland?
    Mr. Morales. Yes, most definitely. For the longest time, we 
lost all of our younger generation. We were really a retirement 
community. Today the average age is 31 in Midland.
    The Millenials are moving in. We just saw our youngest 
voting bloc of 33-year-old females and that is due to--because 
of the quality of life.
    The quality of place is improving. Amenities are better. 
Education is starting to improve, secondary schools. So 
schools--or these--again, these oil companies are realizing 
that they are the ones that are making the impact so they need 
to make that investment.
    Mr. Shimkus. And let me go to Commissioner Camp. Same type 
of questions.
    Mr. Camp. As I stated in my testimony earlier, in the 1980s 
when the steel industry left Beaver County and left western 
Pennsylvania because of the emissions and the changes were one 
of the key driving factors to that, a lot of the--a lot of the 
college-educated individuals left western Pennsylvania to go 
work elsewhere, we are starting to see them come back now. We 
are working with different programs throughout the county, 
western PA.
    As the mayor said before, the public-private partnership 
that we have with the companies that are coming here, investing 
in Beaver County, not only in our infrastructure, not only in 
our municipalities and governments, they are also investing 
into our schools, our local colleges, our community college of 
Beaver County.
    They invested more than a million dollars to build a 
process technology center to educate the individuals who the 
Governor said earlier don't necessarily have to go to a 4-year 
school to have a good family-sustaining job, and these 
companies are investing in Beaver County in western PA.
    Mr. Shimkus. Yes, and I was--I was just--I am glad you 
added photos to your testimony because here is a closed zinc 
plant or--zinc plant on the river turned to a cleared off land 
now to this new, I guess, multiple thousands of people--labor 
working to build this factory.
    And then also on the back you had the water plant, from the 
old water plant that--the only thing you could afford versus 
now what you can afford to provide for your constituents.
    Mr. Camp. To talk about those two real briefly, the zinc 
plant, it was an Act II environmental program and it has vastly 
improved to the existing site. It was spent--they spent $80 
million on bringing that up to code to where it needed to be.
    The water treatment facility was a $69 million project by 
this private-public partnership. We have to be able to provide 
water for a 100 years now for that one community.
    So, as I said before, these companies are investing their 
money and their fortune into these municipalities and 
communities because they plan on being here for a long time and 
provide those jobs.
    Mr. Shimkus. So it is safe to say that energy development 
and the livelihood of people who you represent are greatly 
benefited by that?
    Mr. Camp. Absolutely. They are, and as the Governor said 
earlier, those who suffer the most from air quality and any 
other emissions are the ones who are living in poverty under 
the bridges and by the roads.
    If we don't have these jobs in Beaver County or western PA 
or eastern Ohio or northern West Virginia, that poverty level 
is going to peak up as it did in the 1980s.
    Mr. Shimkus. Mr. Morales, you would agree?
    Mr. Morales. I would wholeheartedly agree, and I would also 
say in the State of Texas, because the Permian shale, 35 
percent of the severance tax that we submit is staying in the 
roads, infrastructures of all of Texas, not just the Permian 
Basin.
    So our shale, the production out there, is impacting 
schools and infrastructure.
    Mr. Shimkus. Thank you. I yield back my time. Thank you, 
Mr. Chairman.
    Mr. Tonko. The gentleman yields back and we now recognize 
the gentlelady from the State of California. Representative, 
you have 5 minutes.
    Ms. Barragan. Thank you.
    First, I want to start by thanking the panelists for being 
here today. I have been running back and forth, so I apologize 
if I ask some questions that have been asked already.
    I want to start with you, Mayor Brainard. I understand that 
you are a Republican mayor. Is that correct?
    Mr. Brainard. That is correct.
    Ms. Barragan. I understand that you have been working hard 
in your city to work on climate change. Is that correct?
    Mr. Brainard. Yes.
    Ms. Barragan. A couple of years ago, you gave a quote to an 
article in Think Progress and I am going to ask you about it 
because my frustration is that sometimes when you talk to--I 
talk to my colleagues on the other side of the aisle about 
climate change and working on this issue, there appears to just 
be the conversation of what we are having by some of our other 
guests and why is it important that we drill and why it is 
important that we do fracking and so on and so forth.
    I get the--I get the arguments that are made over there and 
I am really glad that this committee hearing is focused on why 
we need to address climate change and what you are doing on a 
local level.
    You had told Think Progress back then--I just want to make 
sure it is accurate--you said, and I quote, ``Republicans have 
been intimidated to some degree by the Tea Party and the 
conservative talk show hosts on addressing climate change,'' 
and you went on to talk about how you do what is right for your 
constituents, and when you do that, that is the best thing to 
do.
    Do you stand by that comment? Only because I am curious. I 
would love to just hear it. Do you stand by that comment?
    Mr. Brainard. I do. I think that a lot of these radio 
shows, you know, they have a particular political persuasion. 
Some are liberal, some are conservative. But those commentators 
are sometimes out to make money and get listenership and not 
always focused on finding solutions, and I am frustrated with 
that, as I think a lot of us are.
    I think that, you know, mayors don't have the leisure of 
having sort of partisan politics that maybe those in State 
capitals or maybe those here in Washington do.
    We see our constituents in the grocery stores and the 
barber shops and on the street every day. They don't care about 
partisan politics very much. They care about making sure that 
services that they are paying local taxes for are done.
    They care about the quality of life in their communities. 
They care about the future of their children. They care about 
the schools and the library systems and they care about safe 
drinking water and clean air and what the world is going to be 
like for their descendants.
    I think being a mayor is probably one of the least partisan 
offices you can hold in the United States. We are kind of a 
joke at the Congress of Mayors. There is no Republican or 
Democrat way to--excuse me, Democratic way--to plow snow or 
fill potholes. There really isn't.
    Ms. Barragan. Thank you for that. I have served on the 
local city council and served as a mayor and understand where 
you are coming from.
    I just want to applaud you in your efforts to think beyond 
the partisanship and think about what is right not just for 
your--for your constituents but for America and for the future 
of this planet.
    You know, I have a mayor that is not in my district but 
somebody who I work very closely with. He is the mayor of 
Lancaster in California. His name is Rex Parris, Republican. 
And people tell me, you know, like, what are you doing--he is a 
conservative. He is a Republican.
    I said, you know what, he cares about climate change. He is 
acting on climate change. And I think that--I applaud because 
we need to make sure to come together. This should not be a 
partisan issue at all. This really is about the future of our 
children, their health, and the impacts.
    You know, some of the things they are doing down in 
Lancaster I just want to highlight because when I was on the 
city council we actually went down to Lancaster to see what 
they were doing there to figure out how can we do this in our 
own community.
    And they have achieved their net-zero energy status in 
2016, which they define as producing more energy from sun or 
wind than they use.
    They have all electric buses in Lancaster. They make sure 
that every new home built is solar powered and affordable at 
that. It is the first city to require actually solar panels on 
every home.
    Now, I realize that different parts of the country are a 
little different and maybe you can't get the same type of 
result that you would get in sunny California.
    But what I wanted just to highlight was that one is it is 
great to see you here and great to see your testimony here. And 
maybe in my final seconds, can you maybe highlight or give us 
an idea of what are things--a couple of things maybe you have 
done that you think Congress should consider in making--doing 
the same on our level so we can help address the climate change 
issue.
    Mr. Brainard. Would you like examples of what we have done 
in Carmel? I want to make sure I understand the question.
    Ms. Barragan. Something you have done in your city that 
maybe we should look at as something we should implement on a 
national level to help fight climate change.
    Mr. Brainard. Well, I think there are great opportunities 
through the highway trust fund, which funds local highway 
projects, to toughen up on how we design our cities.
    We have designed our cities in the United States so that 
the average person, including all the people that don't drive 
in big cities along the East Coast and Chicago--we have 
designed our cities so the average driver is spending 2 hours a 
day in their car.
    We can do better than that, and since so much of the money 
for building that highway system comes from the highway trust 
fund, having a little stronger requirements that encourage 
better city design could make a big difference to those auto 
emissions that cause such problems, for instance, to Salt Lake 
City.
    We have done that in Carmel. We have designed our center 
core with our roundabouts, other traffic innovations, so the 
average commute in our city is 4 to 5 minutes, not 2 hours, 
today.
    Mr. Tonko. Representative Barragan yields back.
    And we now go to the gentleman from the State of West 
Virginia, Representative McKinley, for 5 minutes.
    Mr. McKinley. Thank you, Mr. Chairman. Looks like I am 
batting cleanup here on this. So let us go--just a quick note 
to Mayor Brainard.
    Fifty years ago, I graduated from Purdue. So I want to give 
a shout out to your Ryan Cline that got us an opportunity. That 
kid just shot the lights out that night and----
    Mr. Brainard. He did, didn't he? I am a Butler graduate, 
but we still like Purdue.
    Mr. McKinley. You still have a chance for education.
    Mr. Brainard. That is right.
    Mr. McKinley. So the other--I want to go to Camp, because 
there is a concern I have had, and many of us are watching many 
of our political figures hiding behind climate change as an 
excuse to push an ideology.
    And so, Commissioner Camp, let me just point out some 
examples on it. Under the Commerce Clause--under the Commerce 
Clause, there are numerous challenges now around the country 
about this because you just heard--maybe heard Governor Inslee 
trying to prevent coal from being exported across the State to 
be exported.
    We have a Governor in Maryland using--preventing gas 
pipelines being constructed across Maryland, 3\1/2\ miles long, 
12 feet wide, and is trying to prevent that from happening.
    We see in New York fighting the Commerce Clause by 
preventing the pipeline construction up there to distribute 
gas. My concern comes back to you, because I am from Wheeling, 
just down the road, just I am at the other end of that river. 
Just follow--come on around.
    If we can't ship our ethane--if Governors and political 
figures are using various rules and regs to prevent the 
transportation, how are we going to get ethane to you at the 
cracker plant? How are we going to get coal transported up? How 
are we going to get gas up into New England when they have 
shortages?
    Do you sense--are you getting any sense that sometimes we 
are allowing our ideology to get ahead of us instead of science 
and the law, to be able to allow our products to be shipped to 
market?
    Do you think they are hiding behind that?
    Mr. Camp. I do. I think a lot of times, you know, you have 
to let science play out and you have to figure out how we are 
going to move the products from point A to point B.
    So we are seeing that. Fortunately, you know, for the Shell 
petrol chemical plant they are running 97-mile natural gas line 
directly to the plant. We haven't run into that.
    But, you know, Mr. Johnson--in Congressman Johnson's 
district, he has a proposed petrochemical plant in Belmont 
County, Ohio. They might be running into that situation in the 
years to come.
    So I do believe so. Yes, sir.
    Mr. McKinley. I am just concerned about people who are 
hiding behind something. I ran out of time. I went two minutes 
over with Inslee.
    So but I wanted to challenge him on one statement because 
he made--just to show how science is being twisted here a 
little bit, wherein he made a public comment that--what was his 
quote? ``We are tired of breathing smoke from Mississippi.''
    Now, I am just an engineer from Perdue. I have never heard 
of the wind currents going from Mississippi up to the State of 
Washington.
    Is there something I am missing here, or is this just one 
more thing that people are trying to use an ideology?
    Mr. Camp. I believe so. Yes, sir. I think, as Ranking 
Member Shimkus said earlier, you know, we had studies in the 
past administration and go through--if we would have spent our 
time and energy focusing on how to help these other nations 
with their emissions, you know, if you truly believe in global 
warming and climate change, it is a national--it is a world 
thing, not just a national thing.
    And if we focused our time, energy, finances, resources on 
helping the entire world and not just the United States, we 
would be moving, you know, to the future a little faster.
    Mr. McKinley. Can't agree with you more. I hope there is 
going to be more emphasis on the global involvement and how we 
get that done.
    So I thank all of you for the panel and I yield back my 
time.
    Mr. Tonko. The gentleman yields back.
    I request unanimous consent to enter the following items 
into the record. They include a report by the University of 
Montana entitled ``The Economic Impact of the Early Retirement 
of Colstrip Units 3 and 4,'' a letter from the mayor of Rock 
Falls, a Washington Post article from March 28th of 2019 
entitled ``In small towns across the nation, the death of a 
coal plant leaves an unmistakable void,'' a report by Energy 
Innovation titled ``The Coal Cost Crossover: Economic Viability 
of Existing Coal Compared to New Local Wind and Solar 
Resources,'' the United States Climate Alliance's 2018 annual 
report, a New York Times article from March 29th of 2019 
entitled ``They Grew Up Around Fossil Fuels. Now Their Jobs Are 
in Renewables,'' an article from KPAX titled ``Montana Senate 
Advances Bill to Aid Northwestern Purchase of Colstrip 4 
Share,'' two articles from the Institute for Energy Research 
entitled ``China's New Environmental Problem: Battery 
Disposal'' and the other ``The Mounting Solar Panel Waste 
Problem,'' an article from Amnesty International entitled 
``Amnesty challenges industry leaders to clean up their 
batteries,'' and, finally, an article from Engineering.com 
entitled ``Will Your Electric Car Save the World or Wreck It?''
    Request for unanimous consent? Without objection, so 
ordered.
    [The information appears at the conclusion of the 
hearing.]\1\
---------------------------------------------------------------------------
    \1\ The University of Montana, Energy Innovation, and United States 
Climate Alliance reports have been retained in committee files and also 
are available at https://docs.house.gov/Committee/Calendar/
ByEvent.aspx?EventID=109745.
---------------------------------------------------------------------------
    Mr. Tonko. I would like to thank all of our witnesses for 
their participation in today's hearing.
    I remind Members that, pursuant to committee rules, they 
have 10 business days by which to submit additional questions 
for the record to be answered by the witnesses who have 
appeared.
    I ask each witness to respond, please, and do so promptly 
to any such questions that you may receive.
    And at this time, the subcommittee is adjourned.
    [Whereupon, at 1:11 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]

               Prepared Statement of Hon. Debbie Dingell

    Thank you Chairman Tonko and Republican Leader Shimkus for 
holding this important hearing today to discuss the urgent 
threat from climate change we all face and to learn from State 
and local governments firsthand who are acting, arm-and-arm 
together, to address this existential threat.
    At our last hearing on climate change, we learned that the 
abdication of American leadership at the Federal level is 
having a significant cost in mitigating carbon pollution and 
meeting the goals of the Paris Agreement. In absence of this 
leadership, cities, States, businesses, and universities all 
across this country have stepped up and pledged to lead.
    From the 23 States who have joined the United States 
Climate Alliance to the more than 400 mayors who have joined 
the Climate Mayors network, we are seeing a growing bipartisan 
collection of Governors, mayors, city councils, and local 
decisionmakers--who are on the frontlines--working together.
    The U.S. Climate Alliance now represents more than half the 
United States population and almost three-fifths of the 
domestic economy.
    Today's hearing will allow Congress and the American people 
the opportunity to listen and learn from the State and local 
officials who are choosing to lead. Climate change is a threat 
to every generation, now and to come. I look forward to 
learning what is working at the State and local levels and any 
recommendations our witnesses may have for the committee.
    Thank you, and I yield back.

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	

                                 [all]
</pre></body></html>
